<html>
<title> - THE EFFECT OF TELEVISION VIOLENCE ON CHILDREN: WHAT POLICYMAKERS NEED TO KNOW</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 THE EFFECT OF TELEVISION VIOLENCE ON CHILDREN: WHAT POLICYMAKERS NEED 
                                TO KNOW

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2004

                               __________

                           Serial No. 108-116

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
96-095                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
RALPH M. HALL, Texas                   Ranking Member
MICHAEL BILIRAKIS, Florida           HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
CHRISTOPHER COX, California          SHERROD BROWN, Ohio
NATHAN DEAL, Georgia                 BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi, Vice Chairman           TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho
JOHN SULLIVAN, Oklahoma

                      Bud Albright, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Telecommunications and the Internet

                     FRED UPTON, Michigan, Chairman

MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                 Ranking Member
  Vice Chairman                      ALBERT R. WYNN, Maryland
PAUL E. GILLMOR, Ohio                KAREN McCARTHY, Missouri
CHRISTOPHER COX, California          MICHAEL F. DOYLE, Pennsylvania
NATHAN DEAL, Georgia                 JIM DAVIS, Florida
ED WHITFIELD, Kentucky               CHARLES A. GONZALEZ, Texas
BARBARA CUBIN, Wyoming               RICK BOUCHER, Virginia
JOHN SHIMKUS, Illinois               EDOLPHUS TOWNS, New York
HEATHER WILSON, New Mexico           BART GORDON, Tennessee
CHARLES W. ``CHIP'' PICKERING,       PETER DEUTSCH, Florida
Mississippi                          BOBBY L. RUSH, Illinois
VITO FOSSELLA, New York              ANNA G. ESHOO, California
STEVE BUYER, Indiana                 BART STUPAK, Michigan
CHARLES F. BASS, New Hampshire       ELIOT L. ENGEL, New York
MARY BONO, California                JOHN D. DINGELL, Michigan,
GREG WALDEN, Oregon                    (Ex Officio)
LEE TERRY, Nebraska
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Blackman, Rodney Jay, DePaul College of Law..................    24
    Davis, Ronald M., Member, Board of Trustees, American Medical 
      Association................................................    16
    Everett, John, Principal, Neal F. Simeon Career Academy......     1
    Kunkel, Dale, Professor, Department of Communication, 
      University of Arizona......................................    21
    McIntyre, Jeff J., Senior Legislative and Federal Affairs 
      Officer, Public Policy Office, American Psychological 
      Association................................................    13
    Slutkin, Gary, Director, Chicago Project for Violence 
      Prevention, Professor, Epidemiology and International 
      Health, UIC Chicago School of Public Health................     9
Additional material submitted for the record by:
    American Academy of Pediatrics, prepared statement of........    36

                                 (iii)

  

 
 THE EFFECT OF TELEVISION VIOLENCE ON CHILDREN: WHAT POLICYMAKERS NEED 
                                TO KNOW

                              ----------                              


                       MONDAY, SEPTEMBER 13, 2004

              House of Representatives,    
              Committee on Energy and Commerce,    
                     Subcommittee on Telecommunications    
                                          and the Internet,
                                                       Chicago, IL.
    The subcommittee met, pursuant to notice, at 9:30 a.m., 
Neal F. Simeon Career Academy, 8147 South Vincennes Avenue, 
Chicago, Illinois, Hon. Fred Upton (chairman) presiding.
    Members present: Representatives Upton, Shimkus and Rush.
    Staff present: Kelly Cole, majorty counsel; Will Norwind, 
majority counsel and policy coordinator; Howard Waltzman, 
majority counsel; Andy Black, deputy staff director; and Peter 
Filon, minority counsel.

  STATEMENT OF JOHN EVERETT, PRINCIPAL, NEAL F. SIMEON CAREER 
                            ACADEMY

    Mr. Everett. Let me have your attention for a minute, 
please. First, I'd like to welcome my distinguished guests. And 
I say good morning to my favorite students. It's really a 
pleasure to have affair of this magnitude here at Simeon. We 
had a groundbreaking ceremony, I mean a rivetting-breaking 
ceremony last year at this time. And we had the Mayor out, and 
we had all the dignitaries. And now we have our favorite 
Congressman, Bobby Rush, and some more dignitaries out.
    So, Simeon is known to have dignitaries. But let me say 
that this is a real, real educational experience for our 
students. They don't have civics, per se in the high schools 
anymore. But this is a true, true civics lesson. So, please 
enjoy yourself and learn something from this. Because this is 
what it's all about. Thank you, and let's have a good day. 
Thanks.
    Mr. Upton. Well, thank you very much. My name is Fred 
Upton. I'm a Congressman from across Lake Michigan, in St. Joe/
Benton Harbor. And the first thing that I noticed when I walked 
in the school was the name Wolverine. I am a Wolverine, I just 
wanted you to know. And I know our Wolverines here and in 
Michigan took a tough loss on Saturday. But with all of that, I 
know that there will be a better week next week. But good 
morning, today's hearing is entitled ``The Effect of Television 
Violence on Children: What Policymakers Need to Know.''
    I'm honored to be here today with my good friend Bobby 
Rush, in his district, and I am pleased that John Shimkus, 
another Congressman from downstate Illinois, is with us today 
as well. I want to thank the administrators, faculty, and 
especially the students, you all, of this academy, for help 
hosting us here this morning. And just so that we are all on 
the same page, this is a field hearing, an official hearing of 
the U.S. Congress, The House of Representatives, Energy and 
Commerce, Subcommittee on Telecommunications and the Internet.
    This subcommittee will receive all of the communication 
issues, including television. Of course, most of our hearings 
occur in Washington, DC, but sometimes we do try to get out and 
bring our government back to the people. Because Bobby Rush has 
such a deep concern for the young people across this country, 
and in his congressional district, not only did he suggest that 
we hold a hearing on this topic, but that we also hold it here 
today. It was his choice of where we held the hearing.
    We know that there are many types of these, television, 
radio, video games, movies, Internet, music. And without a 
doubt, the media has a tremendous influence on the children of 
America. We probably all agree that the media has both its 
upsides and its downsides for children in terms of education 
and entertainment. And today, we are focusing on the effects on 
children of one aspect of the media, television, and one aspect 
of that media, violence.
    Television is the most common source of information 
available to children growing up in our country. Children are 
not only being entertained, but they're also being educated by 
TV. Nearly all children, 99 percent, live in a home with a TV. 
Half have three or more TVs, and over a third have a TV in 
their bedroom. It is estimated that children today watch 3 to 4 
hours of TV every day.
    And in light of the growing amount of time children find 
themselves in front of the TV, the issue of what they're 
watching becomes increasingly important. Many settings detail 
the growing incidence of violence on TV, even in children's TV 
shows.
    It has been shown that these scenes of violence do have an 
impact on children. It is generally accepted that information 
children receive from these programs cannot help but affect the 
way that they interact with and view sides. Since 1960, a body 
of evidence coming from both laboratory research and survey 
studies has confirmed that there is a causal relationship 
between the observation of aggression and violence on TV and 
subsequent aggressive and violent behavior on behalf on the 
part of the viewer.
    And that appears to be especially true for young kids, as 
much of the research shows that the effect may not just be 
temporary, but may be sustained over the years. In fact, a 
number of national committees composed of scholars will review 
all of the available studies, and come to a similar conclusion, 
there is a casual relationship between viewing violent TV and 
subsequent behavior. And when it comes to the impact of TV 
violence, the number of groups, including the American 
Psychological Association, The American Medical Association, 
The U.S. Surgeon General, The National Institute of Mental 
Health, has confirmed that violence on TV has an influence on 
aggressive behavior, which it can lead into adulthood.
    The three main effects of viewing TV violence include: One, 
learning aggressive attitudes and behaviors; two, 
desensitization to pain and to violence; and three, increased 
fear of being victimized by violence. Interestingly enough, 
studies have also shown that not all TV violence poses the same 
degree for harmful effects. There are many ways to portray 
violence and the consequence of that violence.
    For instance, some examples will glorify violence and the 
perpetrator, others will focus on the negative ramifications of 
committing a crime. Some experts suggests that not all the 
portrayals of violence are bad. Some examples can actually have 
a positive impact on kids. Contectual features, such as the 
attractive perpetrator, an attractive victim, graphic or 
extensive violence, rewards and punishments, and humor, can all 
increase or decrease the risk of harmful effects.
    Looking at it another way, do scenes of gunfights in old 
episodes of Gunsmoke, or Roadrunner pushing Wile E. Coyote off 
a cliff, has the same effect on kids as grim scenes in ``NYPD 
Blue'' or ``Law and Order.'' What about the violent contact of 
broadcast of the NFL Football, or NHL hockey, or scenes of 
military firefights in Iraq on the nightly news? How about 
scenes where the violent actor gets caught by the good guys?
    Certainly, TV violence is neither the sole, nor even the 
most significant cause of restless or violent behavior in kids. 
But it has been shown to have an effect nonetheless. So, today 
we want to learn more about those harmful effects, and learn 
what the parents, educators, and what the communities will do 
to protect their kids from harmful effects. Ultimately, we will 
take the information that we learn here back to Washington so 
that we can see what the government should do, if anything.
    In that regard, a number of years ago Congress passed, and 
I supported the V-Chip Legislation, which paved the way for 
industry to establish ratings for violence to be incorporated 
into the TV set so that the parents could know what, if any, 
content their kids might be exposed to, and to make the 
decision about what their children could watch accordingly, or 
even block those shows.
    I hope to learn from our witnesses today about their views 
on this as well. But as we debate the need for any further 
governmental action, we are compelled to seriously consider the 
significant limits which the First Amendment of the 
Constitution imposes on us. We will learn more about that 
today, too. Because of the significant limits on government 
action, I suspect it will place an even heavier burden on all 
of us parents, teachers, religious and community leaders, the 
TV industry itself to take greater care to address that issue. 
I look forward to hearing from our witnesses today. And I now 
recognize that for an opening statement, my friend, great 
Congressman and good colleague, Mr. Bobby Rush from Illinois.
    [The prepared statement of Hon. Fred Upton follows:]

   Prepared Statement of Hon. Fred Upton, Chairman, Subcommittee on 
                  Telecommunications and the Internet

    Good morning. Today's hearing is entitled: ``The Effect of 
Television Violence on Children: What Policymakers Need to Know.''
    I am honored to be here today in my good friend Bobby Rush's 
congressional district. I am pleased John Shimkus from ``down state'' 
is with us today, too.
    I want to thank the administrators, faculty--and especially the 
students--of the Neal F. Simeon Career Academy for hosting us.
    Just so we're all on the same page, this is a field hearing of the 
U.S. House of Representative's Energy and Commerce Subcommittee on 
Telecommunications and the Internet. This Subcommittee oversees all 
communications issues, including television. Of course, most of our 
hearings occur in Washington, D.C., but sometimes we do try to get out 
and bring our government to the people. And, because Bobby Rush has 
such deep concern for the young people across this country and in his 
congressional district, not only did he suggest that we hold a hearing 
on this topic, but also that we hold it here today.
    We know that there are many types of media: television, radio, 
video games, movies, the Internet, and music. Without a doubt, the 
media has tremendous influence on the children of America. We'd 
probably all agree that the media has both its upsides for children in 
terms of education and entertainment, but it also has its downsides.
    Today, we are focusing on the effects on children of one aspect of 
the media: TELEVISION and one aspect of that medium: VIOLENCE.
    Television is the most common source of information available to 
children growing up in the United States. Children are not only being 
entertained, but are also being educated by television. Nearly all 
children (99%) live in a home with a television, half (50%) have three 
or more televisions, and over one-third (36%) have a television in 
their bedroom. It is estimated that children today watch three to four 
hours of television every day. In light of the growing amount of time 
children find themselves in front of a television, the issue of what 
they are watching becomes increasingly important.
    Many studies have detailed the growing incidence of violence on 
television, and even in children's television shows. It has been shown 
that these scenes of violence have an impact on children. It is 
generally accepted that the information children receive from these 
programs cannot help but affect the way they interact with and view 
society. Since 1960, a body of evidence coming from both laboratory 
research and survey studies has confirmed that there is a causal 
relationship between the observation of aggression and violence on 
television and subsequent aggressive and violent behavior on the part 
of the viewer. This appears to be especially true for young children, 
as much of the research shows that the effect may not just be 
temporary, but may be sustained over the years.
    In fact, a number of national commissions composed of scholars who 
have reviewed all of the available studies have come to a similar 
conclusion--that there is a causal relationship between viewing violent 
television and subsequent behavior. When it comes to the impact of 
television violence, a number of groups, including the American 
Psychological Association, the American Medical Association, the U.S. 
Surgeon General, and the National Institute of Mental Health, have 
confirmed that violence on television has an influence on aggressive 
behavior which can lead into adulthood. The three main effects of 
viewing televised violence include: (1) learning aggressive attitudes 
and behaviors, (2) desensitization to violence, and (3) increased fear 
of being victimized by violence.
    Interestingly, studies have also shown that not all television 
violence poses the same degree of risk for harmful effects. There are 
many ways to portray violence and the consequences of that violence. 
For instance, some examples will glorify the violence and the 
perpetrator; others will focus on the negative ramifications of 
committing a crime. Some experts suggest that not all portrayals of 
violence are the same, and some examples can actually have a positive 
impact on children. Contextual features, such as an attractive 
perpetrator, an attractive victim, justified violence, extensive or 
graphic violence, rewards and punishments, and humor, can all increase 
or decrease the risk of harmful effects.
    Looking at it another way, do scenes of gunfights in old episodes 
of ``Gun Smoke'' or the ``Road Runner'' pushing ``Wile E. Coyote'' off 
a cliff have the same effect on kids as grim scenes in ``NYPD Blue'' or 
``Law and Order''? What about violent contact in broadcasts of NFL 
football or NHL hockey? Or scenes of military firefights in Iraq on the 
nightly news? How about scenes where the violent actor gets caught by 
the good guys?
    Certainly television violence is neither the sole, nor even the 
most significant, cause of aggressive or violent behavior in children, 
but it has been shown to have an effect nonetheless. So, today, we want 
to learn more about those harmful effects and learn what parents, 
educators, and communities can do to protect children from those 
harmful effects.
    Ultimately, we will take this information back to Washington with 
us as we debate what, if anything, the government can do. In this 
regard, a number of years ago, Congress passed, and I supported, V-CHIP 
legislation, which paved the way for industry-established ratings for 
violence to be incorporated into television sets so that parents could 
know what, if any, violent content their children might be exposed to 
and make decisions about what their children watch accordingly, or even 
block those shows completely. I hope to learn from our witnesses about 
their views on this as well. But as we debate the need for any further 
governmental action, we are compelled to seriously consider the 
significant limits which the First Amendment of the Constitution 
imposes on us, and we will learn more about that today, too. Because of 
these significant limits on government action, I suspect it will place 
an even heavier burden on all of us as parents, teachers, religious and 
community leaders--and the television industry itself--to take greater 
care to address this issue.
    I look forward to hearing from today's witnesses on this important 
topic, and I appreciate them being here to help us examine it.

    Mr. Rush. Thank you very much, Mr. Chairman. And, Mr. 
Chairman, I want to say, first of all, how delighted and 
gratified that I am that you will come to Simeon High School, 
to the 4th Congressional District, in hopes to conduct this 
most important hearing. I want all of us who are present today, 
all the students to know, that the Chairman didn't have to 
agree to come here. But he did because he's concerned about 
this particular issue. He's concerned about what happens to our 
young people. He's concerned about the effects of violence in 
America.
    Mr. Chairman, I want you to know that, although we come 
from different political parties, and that what you are doing 
today shows your character as an individual, as a concerned 
American, it shows that you have risen above and can rise above 
partisan differences to make sure that we come together to do 
those things, and to hear from witnesses, and to really involve 
ourselves in solving some of the problems that America faces.
    And again, Mr. Chairman, I just want to say to you that you 
are the kind of chairman that will push and pull and make this 
an issue, a much, much, better Nation. Thank you so much for 
coming to Simeon High School this morning. I want to thank our 
inductor, the CEO and the Superintendent of the Chicago Public 
Schools, and Michael Scott. And I want to thank Dr. Everett for 
hosting this here at Simeon Academy.
    This school is a remarkable school. This school has had its 
share of violence. I recall so vividly some 20 years ago, the 
mid-1980's, and the No. 1 college--rather, the No. 1 high 
school player in the Nation, the basketball player in the 
Nation was gunned downed not too far from where we're sitting 
at today. Simeon has risen above those kinds of incidents. But 
violence is still a part of the day-to-day likely experiences 
of too many young people, not only here at Simeon, but across 
this city and across this Nation.
    This hearing today is important because it will help us to 
determine how we can, as Members of Congress, and as members of 
the telecommunication subcommittee how we can address our 
responsibility to try to decrease the incidents about violence, 
particularly as it affects young people today.
    Mr. Chairman, you mentioned certain statistics. And I just 
want you to know that I was alarmed after I looked at some of 
the studies. The National Television Violence Study indicated 
that violence was found to be more prevalent in children's 
program, 69 percent, than any other type of program on TV, 
which occur at a clip of about 57 percent. The average child 
who watches 2 hours of cartoons a day may see nearly 10,000 
violent incidents a year.
    An average city estimated that the averages in pre-school 
and school-age child, who watch television 2 to 4 hours per 
day, would have seen 8,000 murders and over a hundred thousand 
additional acts of violence on television by the time they 
finished elementary school. These are alarming statistics, Mr. 
Chairman. We're getting to a point in our society, in fact, we 
might have already reached that point, where we glorify 
violence. And these, Mr. Chairman, I believe that we're living 
in a culture that is violent, so violent, that desensitize our 
responses, desensitize our activities and desensitize our 
approach to violence.
    And, Mr. Chairman, I want to say to you, again, that I am 
very glad, grateful, I really believe that this is going to be 
one of those types of hearings that will be one of our greater 
achievements of our subcommittee, and our subcommittee has 
achieved many great achievements over the past years, and I 
want you to know that this is an important hearing, and thank 
you so much for being here.
    [The prepared statement of Hon. Bobby L. Rush follows:]

Prepared Statement of Hon. Bobby L. Rush, a Representative in Congress 
                       from the State of Illinois

    Good morning, and welcome to Chicago. I would like to thank 
Chairman Upton for holding this important hearing in my home city of 
Chicago. I also would like to thank Arne Duncan, CEO and Superintendent 
of Chicago Public Schools, Michael Scott, President of the Chicago 
Board of Education and Principal John Everett for hosting us here today 
at the exquisite Neal F. Simeon Career Academy a brand new state of the 
art learning center.
    As many of you know, the pervasiveness and effects of television 
violence continue to be an issue of considerable concern to me. It is 
well documented that violent programming has an adverse effect on human 
behavior and attitudes. It encourages violent behavior and influences 
moral and social values and violence in daily life. However, what 
concerns me more is the affect that violent programming has on 
children. There is a strong body of evidence that suggest that exposure 
to violent acts on television increases aggressive behavior in children 
in the short-term and long-term.
    Study after Study have shown a causal link between violent 
programming and violent behavior in children. The National television 
violence study indicated that violence was found to be more prevalent 
in children=s programming (69%) than in other types of programming 
(57%). The average child who watches 2 hours of cartoons a day may see 
nearly 10,000 violent incidents each year. Similarly, a study conducted 
by researchers from the Annerberg school of communication in 
Pennsylvania, estimated that the average preschooler and school aged 
child who watched television two to four hours per day would have seen 
8,000 murders, and over 100,000 additional acts of violence on 
television by the time the child finished elementary school.
    As you can see these statistics are alarming. What we have is a 
society that is not only glorifying violence but it is also becoming 
desensitized to violence. Gone forever are the days when a parent could 
simply sit a child in front of the television without adult 
supervision. Television today requires that responsible parents be pro-
active in the selection and monitoring of materials that their children 
are permitted to watch. The issue for us today as policy makers, 
academia, parents and teachers, is not only how do we shield our 
children from excessive TV violence but how do we help parents 
understand and control the programs their children watch.
    In 1996, Congress passed legislation as part of the 1996 
Telecommunications Act that required television sets to be equipped 
with an electronic device, called the V-chip, which allowed parents to 
block certain programming. In addition, Congress encouraged the video 
and distribution industry to establish an age-based rating system. 
However, since the advent of the V-chip technology and the age-based 
ratings system, it was reported by the Kaiser Family Foundation that 
only half the parents surveyed used the television ratings system to 
guide their children=s viewing. Also, it was found that only 7% of all 
parents were using the V-chip technology.
    Apparently many parents were not aware that television rating 
system existed. As for the V-chip many parents who knew about it did 
not know how to use the technology. It seems that the system Congress 
has in place is not working. As legislators, we have a responsibility 
to improve our existing safeguards but also to create better safeguards 
that will shield our children from inappropriate programming. Currently 
in Congress, there is pending legislation that would create a safe 
harbor provision that would restrict excessively violent programming 
that is harmful to children during the hours when children are likely 
to be a substantial part of the viewing audience. This ``safe harbor'' 
provision is worth examining. That said, I would like to welcome the 
witnesses and thank them for being with us this morning. Each of you 
has done considerable work on the issue of TV violence, and I thank you 
for your time and effort for appearing here today.

    Mr. Upton. Thank you, Mr. Rush. I just want to say, too, as 
I look at my tenure as chairman, who's been able to do a whole 
number of issues in bipartisan debates of republicans and 
democrats working together, I'm very proud of that record. And 
I recognize now, a good friend also from the State of Illinois, 
downstate Illinois, and a fellow who really helped lead the 
charge of getting back his son, which I'm really here to talk 
about. I never go anyplace without saying something about it. 
And I would note that I think every member, including you, were 
a co-sponsor of that, and passed that with honorable, noble men 
to support this. So, with that, Mr. Shimkus, please give an 
opening statement.
    Mr. Shimkus. Thank you, Mr. Chairman. And I also want to 
thank our panelists, who we'll hear from in a minute, and along 
with my friend, Bobby Rush, for the warm hospitality. I also 
want to take time to speak to our guests in the audience there. 
I taught high school before for years, government history. So, 
to lay out what's occurring here is, this is an official 
hearing of your Federal Government on violence on TV. And we're 
politicians, right here. These are the experts in different 
fields, and we're going to look to them as they tell us what's 
right or what's wrong. And maybe give us advice of how we can 
fix it, or how we can't. How we might not be able to touch it. 
And hopefully, we take this back, and you see a stenographer 
over there taking the official recordings, so, then we take the 
testimony back to Washington. We distill it, and maybe there is 
a place where, especially if we want to be successful in a 
bipartisan manner, then get the legislation drafted to try to 
fix it if it's a possibility. And so, that's what this is. It's 
not just, you know, coming here, but it's actually the work 
that we do in Washington, especially in our committee, on a 
weekly basis. We're just holding a hearing.
    Now, Bobby represents the First Congressional District; I 
represent the 19th District in Illinois. So, we're on the south 
side of Chicago. My District also goes through Springfield, 
Illinois, all the way down to Paducah, Kentucky. I represent 30 
counties. So, the other important thing to remember is a great 
diversity that you see from Members of Congress that they're 
trying to tackle the issues and problems that relate to a 
national concern. The urban areas and the suburban areas 
sometimes might have a different approach to rulings, many 
times they're very simple. And so, it's narrowing those great 
differences across and dividing them, and hopefully be 
successful.
    I will put in my applaud for putting on my marketing hat, 
which I've gotten through and will do of one such success. And 
interestingly more panelist are knowing about it, because 
that's why I always mentioned it. We have the same concern on 
what's going on over the TV that we have on the Internet. In 
fact, the Internet is even a more dangerous place because you 
can have interaction. And a lot of young men and women get 
caught up in it, and a lot of harm has been done, especially by 
adult predators to children. That's why we were able to pass in 
signing a law a Web site the State prohibits. And I know those 
people who deal with the Internet say, Well, it helps them. 
Well, it's not. You can go to www.kids.us, go to the site for 
kids. There is no hyperlinks, no chat rooms, no instant 
messaging. It's information-based only, and it is, hopefully--
and it hasn't been challenged to the courts yet--suitable for 
minors under the age of 13.
    And my young son, Daniel, who--my 9-year-old and 11-year-
old, they're probably too old for this site, even though we 
made it for kids under 13. My 4-year-old, he'll be 5 in 
October, is an expert on the kids.us Web site. And there he 
will go, he will go to Nick Junior, and he'll play the games. 
And so, he can surf the Web like his big brother. But I can 
monitor him without the fear that something will pop up that 
will be very damaging to a 4 or 5-year-old child.
    So, that's the part of the success that we have done 
through hearings, and testimony, and passing legislation. And 
it is hoped that, as we move forward, that we're able to do 
that in other venues. And I appreciate the Chairman calling the 
hearing and, of course, Bobby Rush, and I look forward to the 
comments from my panelists. And I think that's the one, 
.kids.us, so we'll see if they go on it.
    Mr. Upton. Well, thank you, Congressman Shimkus. At this 
point, we're going to hear from our five witnesses. Their 
statements are made part of the record in their entirety. If 
you limit your remarks to not more than 5 minutes or so, and 
summarize what you have to say. You've got a lot of good 
listeners. And then after that, we're going to follow up with 
questions. And the three of us will have some questions. But I 
also understand that last week the students were given an 
opportunity to write some questions. We're going to let those 
questions in the written form come up to us, and we'll be able 
to ask the panelists answers to those questions.
    We are joined by Dr. Gary Slutkin, Director of Chicago 
Project for Violence Prevention, Professor for Epidemiology and 
International Health, from the UIC Chicago School of Public 
Health, obviously, here in Chicago. Mr. Jeff McIntyre, Senior 
Legislative and Federal Affairs Officer, with the American 
Psychological Association in Washington, DC. Dr. Ronald Davis, 
Member of the Board of Trustees for the American Medical 
Association in Washington, DC, Professor Dale Kunkel at 
Department of Communications from the University of Arizona, 
Tucson, Arizona. And Professor Rodney Blackman, DePaul College 
of Law here in Chicago.
    Dr. Slutkin, you will start. Make sure that the mics are 
close so that the students and everybody can be able to hear.

   STATEMENTS OF GARY SLUTKIN, DIRECTOR, CHICAGO PROJECT FOR 
VIOLENCE PREVENTION, PROFESSOR, EPIDEMIOLOGY AND INTERNATIONAL 
HEALTH, UIC CHICAGO SCHOOL OF PUBLIC HEALTH; JEFF J. McINTYRE, 
 SENIOR LEGISLATIVE AND FEDERAL AFFAIRS OFFICER, PUBLIC POLICY 
 OFFICE, AMERICAN PSYCHOLOGICAL ASSOCIATION; RONALD M. DAVIS, 
 MEMBER, BOARD OF TRUSTEES, AMERICAN MEDICAL ASSOCIATION; DALE 
 KUNKEL, PROFESSOR, DEPARTMENT OF COMMUNICATION, UNIVERSITY OF 
    ARIZONA; AND RODNEY JAY BLACKMAN, DePAUL COLLEGE OF LAW

    Mr. Slutkin. Chairman Upton, Congressman Rush, Congressman 
Shimkus, thank you very much for this opportunity to speak with 
you today. I'm Gary Slutkin, I'm a physician trained in 
internal medicine and infectious disease control. I worked for 
a health organization for 10 years in its behavioral of 
epidemics.
    I now run the Chicago Project for Violence Prevention, 
which is a multi-prong setting interventions to reduce 
shootings in Chicago and other Illinois neighborhoods. We have 
a 45 to 65 percent drop in shootings using this new technology 
for reducing violence. I wanted to quickly go to three items 
for the evidence, what we can do about it, and then a little 
bit about the larger picture.
    The evidence to television and other video violence affect 
children and adolescent behavior is, in my opinion, unequivocal 
and certain. It is serious and dangerous matter, and not 
trivial. The industry may argue that not every study shows 
these effects to their kids. Well, almost every study does, and 
the best reviews of studies done by George Comstalker 
(phonetic), totally unbiased senior, one of the most senior 
epidemiologist in, frankly, the world, has come to the same 
conclusions.
    Both short-term and long-term effects that's been stated 
repeatedly, why does a case, as obvious for our chairman to 
mention the kind of effects, I'll review them briefly, but why 
is this the case? It's absolutely obvious, the extraordinary 
regularity, the magnitude and intensity of the violence make it 
appear as if it's normal. Imitation and modeling are of many 
ways that face these in young children and adolescence learned. 
That's how they select behaviors. We use this very well in 
advertising. That is, again, why the cigarette industry wanted 
to have cigarette smoking on the television regularly, and 
that's why it was removed.
    And, in fact, as you might imagine for very young children, 
and perhaps even others who are watching, may differentiate 
very, very little from things that are commercials, to things 
that are television, as you blockview, just sit there and let 
images come in. The way to promote anything, any behavior, 
whether it's immunizing your children, using Gatorade, drinking 
Coke, or violence, is to show it over and over and over and 
over, as if it were normal. This is the way to do it. If 
someone else, for example, from another country or from another 
society were to be seeing this on types of our programming, and 
into our homes, I would probably find a way to do something 
about it.
    What to do about it? This is more up to you than up to us. 
I realize that the media is principally driven by commercial 
return. Now, since the media is driven by commercial return, 
the use of violence, sex and graphically changing images, those 
are things that grab the eye and the brain, and make it up 
stiff like Velcro. And so, it's very hard to look away when 
violence is happening, sex is happening, or when images change 
fast. So, that's the technology that they use to hold your eye 
to the screen, so that you'll be there for the commercial 
effects. And this is the principle reason why it's done.
    I think that regulation is desirable, I think a completely 
unregulated society that is driven purely by commercial return 
has got to turn into an unhealthy society. I mean, we have to 
put our values into somewhere. And I'm sure there is going to 
be a lot of discussion on this. I would like to add an 
additional suggestion that I learned from work at World Health, 
that it's also possible.
    I remember being there myself, personally or professionally 
involved in the bashing of an industry. And I won't do that 
now. But principally, it's for professional and technical 
reasons, as well as I'm not going to speak against. And I've 
learned that it's possible to change behavior by positive new 
programming on a small level. And for just by way of example, 
in Europe where there is somewhere in the tens of thousands of 
daily episodes on subjects slightly sexual, acts that are 
either shown or implied without a condom, by getting a certain 
amount of condom promotion shown to a certain level, is uptake 
to 70 percent condom used was achieved through European 
countries. So, that it's possible to overcome some of this 
because people will begin to evaluate the others in the 
context. But this has to be done in a professional way with 
credible knowledge and alternative shown.
    The last thing I want to spend a minute on is just talk 
about the larger context. The U.S. Has the highest homicide 
rate of all developed countries in the world. In fact, it's not 
higher by a small amount, it's higher by five to twenty times 
more. So, we have a global reputation that independent of 
international behavior, but surely on the basis of our domestic 
behavior, our homicide rates are high. We're known as a very 
aggressive and violent society statistically and in other ways.
    The media took a part of this. But there also needs to be a 
national strategy to reach this. I've worked on national and 
global strategy, and we don't have one. I mean, we do not have 
one. Having more police and having more afterschool programs, 
are not all that's needed. I mean, there has to be specific 
outreach programs, community disapproval programs, and things 
that show results, programs to a sufficient scale, and we're 
trying to do. And anything other than increasingly more 
dangerous society that we're living in. Thank you.
    [The prepared statement of Gary Slutkin follows:

 Prepared Statement of Gary Slutkin, Director, The Chicago Project for 
                          Violence Prevention

          EFFECTS OF TELEVISION AND MEDIA VIOLENCE ON CHILDREN

    I am Gary Slutkin. I am a physician trained in internal medicine, 
and infectious diseases. I worked for the World Health Organization for 
7 years and was responsible for reversing epidemics such as 
tuberculosis, cholera, and AIDS, and have special training in designing 
interventions and reversing behavioral epidemics. I supported the 
Uganda AIDS control program--the only country in Africa to have 
reversed its AIDS epidemic and I now run the Chicago Project for 
Violence Prevention and CeaseFire Illinois which is reliably obtaining 
45-65% reductions in shootings in some of the highest risk communities 
in the country.
    I would like to talk about three things--the evidence that 
television and media play a role in affecting children, what we can do 
about it, and thirdly, look at the larger picture of what we will need 
to do to substantially reduce the violence in our society.

1. The evidence
    The evidence that television and other media violence affect child 
and adolescent behavior is now unequivocal, and certain. Violence, in 
particular repeated violent events on television and in the movies, 
increases the likelihood of children engaging in violent acts 
themselves. This is serious and dangerous and not a trivial matter. The 
industry can argue that not every study shows this; in fact almost 
every study does.
    Media images of violence especially the extraordinary regularity of 
it, makes it appear as if this is normal behavior. Babies and young 
children look for models, and what to imitate for social approval; the 
media provide some of this ``guidance'' for their behavior. This is not 
a small matter--this is the usual way of learning--and what we see 
others do is more powerful than what we are told to do and told not do. 
We--people--are driven by what we think other people do--and what we 
think will ``get'' us something--from money to prestige to other forms 
of attention or approval.
    Behaviors are driven by social expectations--i.e. ``norms,'' this 
means by what you think other people do. This is true for all 
behaviors. This is one of the reasons we began to limit cigarette 
smoking on television--this was considered important--and I agree--
because of the bad effects in particular for the health of children.
    We show or promote what behaviors ``we'' want to be performed--
immunizing children, buying gym shoes, drinking Coke, eating a cereal, 
bringing children for immunization, using seat belts, using designated 
drivers, smoking or not smoking, or performing violence. Whatever you 
promote will be taken up, and in some proportion to the amount or 
intensity of promotion. Advertisers know this and public health 
professionals know this--whether it is for good or bad, or for this or 
that--whatever is promoted will be taken up to some degree. We are that 
susceptible. And the mind, and especially the young mind, does not 
easily sort between programming, real life and even commercials.
    The literature on the effects of violence on television on children 
is more compelling than most people think. There is a near unanimity of 
scientific opinion on the effects. And further, besides encouraging 
violent behaviors themselves, and resulting in more aggression 
following watching violent programs, other important negative mental 
health consequences are also being seen in the research now. These 
effects--which have also been well demonstrated--include children 
having more anxiety, more fear, more isolation, and desensitization to 
violence--which causes children to care less and help others less. This 
has been shown in playground experiments.
    It would be hard to better design something to promote violent 
behavior and to interfere more with our values and with how our society 
functions, than to consciously ``program'' violence over and over again 
beaming into our homes each night from an electric screen onto our 
minds. If persons outside of our own citizens, for example another 
government, were projecting these images to us, we would find a way to 
stop it immediately.

2. What to do about it.
    The feasibility of constraining this programming is probably 
limited by the success of commercial return. We know that the 
television viewing system is designed to compete for your eye and mind 
through ``visual stickiness'' to the viewing screen, so that your eyes 
and other senses then remain available during the paid advertising 
slots, which are similarly designed to keep you present. You can check 
this yourself--as you are stuck as if by Velcro in the time period, 
while these images are inserted into your brain. Three things keep your 
eyes fixed most intently (and thereby your brain fixed). Eye--brain 
research shows that your are best kept ``focused'' involuntarily--for 
reasons that are instinctive, by images of violence or sex, and by 
rapidly changing images/screens (which in ``real life'' might be scenes 
of danger). The media are using this knowledge to manipulate our 
attention, and thereby arguably unfairly taking advantage of what keeps 
us stuck. This is why violence is used in programming.
    Regulation is desirable. I realize that we are not today in a 
climate of increasing regulation. I realize that further regulation of 
many harmful events may be less feasible today as our society is even 
more permissive of these effects, despite actual and known dangers, 
since there is a desire to not interfere with commercial activity. 
However it is probably worthwhile to consider why this violent 
programming is so prevalent, and more tolerated than other matters, for 
example consensual sex. Is there regulation of showing sex on 
television? How was this distinction drawn? What is more harmful 
consensual sex or murder? Which should be considered more normal and 
acceptable? How does murder compare with smoking cigarettes?
    A direction of even further loss of government regulation will have 
serious consequences for our society. A society that is motivated 
without sufficient attention to research despite capital gain, and 
without more guidance or regulation may be heading for even further 
disastrous consequences.

3. Other possible solutions
    I am not the one to say whether regulation in this area is legal or 
politically practical, despite commercial gains by the industries that 
advertise competitively using violence as a tactic, to keep our 
attention. But we do need to be awake to this.
    I would like to bring forward one other parallel track that we 
should very seriously pursue if we share the objectives of maintaining 
free speech under any and all conditions, despite consequences that we 
know are present, but still trying to reduce violence and the 
acceptability of violence in our society. Programming which promotes 
alternatives to violence and shows the unacceptability of violence if 
programmed at the 5% level from credible role models could off-weigh a 
substantial part of the effects if performed in a specific and pre-
designed way. It is beyond the scope of this testimony to describe 
this, but success in other fields has been performed from similar 
approaches. I am not talking about ``shows about non-violence,'' but a 
specific type of social marketing toward deglamorizing and discrediting 
violence with endpoints that would be agreed upon by the industry and 
by government. I would be happy to discuss this with interested 
persons.

4. The larger context--homicide and violence in America
    Last, I want to spend just a minute to put this in a larger 
context. The U.S. has the highest homicide rate of all rich countries. 
In fact this rate is not just larger but substantially larger (5-20 
times), and is not due to guns alone. This is a global anomaly that is 
remediable. It is clear that the media violence is drastically 
excessive and should not really be acceptable in particular for 
children, but we must recognize that we as a society, country, and 
nation have a particular problem. This is both within our borders and 
otherwise. We must develop a strategy for dealing with this. There is 
at this moment no strategy for dealing with this that would be 
considered an actual strategy, and even 100,000 more cops would not be 
a ``strategy,'' but just one piece of what is needed. This view is 
accepted even by Chief Bratton, previously of New York City and now of 
Los Angeles. More is needed than police.
    The community piece of violence reduction and the intervention 
component are now scientifically grounded and there are now 
opportunities for developing a much more specific and reliable set of 
methods that should reduce urban and other homicides by 40--70%. This 
would result in reduced crime, reduced costs of crimes, better use of 
state budgets than for prisons, release of funds for education 
spending, and urban renewal and economic development for many urban and 
rural communities. It is urgent for public health and community benefit 
that the country develop a specific outcome based, scientifically 
grounded, and already community demonstrated approach to reducing 
violence, and take this to scale for the benefits of dozens or hundreds 
of communities.
    At a minimum, we need to immediately develop in our most violent 
cities, active outreach, public education, high-risk alternatives, and 
community involvement strategies that are specific, measurable and show 
results. Even after the more cops on the street programs, rates of 
violence still remain enormously higher than should be the case in our 
society. CeaseFire type programs as are now being applied in Chicago 
and other sites throughout the country, and are urgently needed in more 
cities. A National CeaseFire Partnership is in the early stages of 
development. For the younger children, I think specifically designed 
social marketing approaches could also add substantially.
    I am very grateful for this opportunity to speak with you about all 
of our concerns about the violent nature of our society today, the 
rapidity in which we as individuals and groups move into this 
predictable pattern, and how we are continuing to teach this to our 
children. Unless we fully accept the trend that is in process, and take 
the specific actionable steps--with or without regulation of the 
media--we will be living in an even much dangerous world.

                               References

    Comstock, G. 1991. Television in America. Newbury Park, CA: Sage 
Publications.
    Donnerstein, Edward and Linz, Daniel. 1995. ``The Mass Media: A 
Role in Injury Causation and Prevention.'' Adolescent Medicine: State 
of the Art Reviews vol. 6, no.2:271-284. Philadelphia, PA: Hanley & 
Belfus, Inc.
    Hornik, Robert C. 2002. Public health communication: evidence for 
behavior change. Mahwah, NJ: Lawrence Erlbaum Associates, Inc.
    Huston, A.C., Donnerstein, E., Fairchild, H., Feshbach, N.D., Katz, 
P.A., Murray, J.P. Rubinstein, E.A., Wilcox, B. and Zukerman, D. 1992. 
Big World, Small Screen: The Role of Television in American Society. 
Lincoln, NE: University of Nebraska Press.
    Liebert, R.M. and Sprefkin. 1998. The Early Window: Effects of 
Television on Children and Youth. New York: Pergamon.
    Murray, J.P. and Salamon, G. 1984. The Future of Children's 
Television: Results of the Markle Foundation/Boys Town Conference. Boys 
Town, NE. The Boys Town Center.
    National Institutes of Mental Health. 1982. Television and 
Behavior: Ten Years of Scientific Progress and Implications for the 
Eighties vol. 1. Rockville, MD: U.S. Department of Health and Human 
Services.

    Mr. Upton. Thank you very much.
    Mr. McIntyre.

                  STATEMENT OF JEFF J. McINTYRE

    Mr. McIntyre. Good morning, Mr. Chairman, members of the 
House Energy and Commerce Subcommittee on Telecommunications 
and the Internet. I am Jeff McIntyre, and I'm honored to be 
here in Chicago to represent the American Psychological 
Association.
    I've conducted years of work related to children and the 
media as a negotiator for the development of a television 
rating system. As an advisor to the Federal Communications 
Commission's V-Chip Task Force, as a member of an informal 
White House Task Force on navigating the news media, as a 
member of the steering committee for the Decade of Behavior 
Conference on Digital Childhood, and most importantly, as a 
representative of the research concerns of the over 150,000 
members/affiliates of the American Psychological Association. I 
also have an appointment on the Oversight Monitoring Board for 
the current television rating system.
    At the heart of the issue of children and the media is a 
matter long addressed by psychological research. The effects of 
repeated exposure of children to violence. The media violence 
issue made its official debut on Capitol Hill in 1952 with the 
first of a series of congressional hearings. That particular 
hearing was held in the House of Representatives before the 
Commerce Committee. The following year, 1953, the first major 
Senate hearings was held before the Senate Subcommittee on 
Juvenile Delinquency, who convened a panel to inquire into the 
impact of television violence on juvenile delinquency.
    There have been many hearings since the 1950's, but there 
has only been limited change until recently. Media violence 
reduction is fraught with legal complications. Nevertheless, 
our knowledge base has improved over time with the publication 
of significant and landmark reviews. Based on these research 
findings, several concerns emerge when violent material is 
aggressively marketed to children.
    Foremost, the conclusions drawn on the basis of over 30 
years of research contributed by American Psychological 
Association members, including the Surgeon General's report in 
1972, National Institute of Mental Health's Report in 1982, and 
the industry-funded 3-year National Television Violence Study 
in the 1990's, show that the repeated exposure to violence in 
the mass media places children at risk for: Increases in 
aggression; desensitization to acts of violence, and 
unrealistic increases in fear of becoming a victim of violence, 
which results in the development of other negative 
characteristics, such as mistrust of others, et cetera.
    Now, if this sounds familiar, it is because it is the 
foundation upon which representatives of the public health 
community comprise of the APA, the American Academy of 
Pediatrics, and the American Medical Association issued a joint 
consensus statement in the year 2000 on what we absolutely know 
to be true regarding children's exposure to violence in the 
media. Certain psychological facts remain and are well 
established in this debate. As APA member Dr. Rowell Huesmann 
stated before the Senate Commerce Committee, just as every 
cigarette you smoke increases the chances that some day you 
will get cancer, every exposure to violence increases the 
chances that some day a child will behave more violently than 
they otherwise would.
    Hundreds of studies have confirmed that exposing their 
children to a steady diet of violence in the media made our 
children more violence prone. The psychological processes here 
are not mysterious. Children learn by observing others. Mass 
media and the advertising world provide a very attractive 
window for these observations.
    The excellent children's programming such as Sesame Street, 
and prosocial marketing such as that around bicycle helmets 
that exists, is to be commended and supported. Psychological 
research shows that if what is responsible for the 
effectiveness of good children's programming and prosocial 
marketing is that children learn from their media environment. 
And if children can learn positive behaviors via this medium, 
they can learn negative ones as well.
    The role of rating systems in this discussion merits 
attention. There continues to be concern over the ambiguity and 
the implementation of the current television rating system. It 
appears that rating systems are undermined by the marketing 
efforts of the very groups responsible for their implementation 
and effectiveness. That, Mr. Chairman, and members of the 
subcommittee, displays a significant lack of accountability and 
has to be considered when proposals for industry self-
regulations are discussed.
    Also undermined here are parents and American families. As 
the industry has shown a lack of accountability in the 
implementation of the existing rating system, parents have 
struggled to manage their family's media diet against 
misleading and contradictory information. For instance, 
marketing an R-rated film to children who are under 17. While 
the industry has made some information regarding the ratings 
available, more information regarding content needs to be made 
more accessible more often. Just as with the nutritional 
information, the content labeling should be available on the 
product and not hidden in a distant Web site or in the 
occasional pamphlet.
    Generally speaking, most adults see advertising as a 
relatively harmless annoyance. However, advertising directed at 
children, especially in young children that features violence, 
generates concern. The average child is exposed to 
approximately 20,000 commercerials per year And that's only for 
television. It doesn't include print or the Internet. And much 
of this is during weekend morn or weekday afternoon 
programming. Most of the concern stems not from the sheer 
number of commercial appeals, but from the inability of some 
children to appreciate and defend against the persuasive intent 
of marketing. Especially advertising featuring violent product.
    A recent Federal Trade Commission report on the marketing 
of violence to children heightens these concerns. As a result 
of the Children's On-Line Privacy Protection Act, the Federal 
Trade Commission has ruled that parents have a right to protect 
their children's privacy from the unwanted solicitation of 
their children's personal information. We would argue that, 
based on the years of psychological research on violence 
prevention and clinical practice in violence intervention, 
parents also have the right to protect their children from 
material that puts them at risk of harm. With the 
considerations that are in place for children's privacy, the 
precedent for concern about children's health is well 
established.
    Decades of psychological research bear witness to the 
potential harmful effects on our children and our Nation if 
these practices are continued. Chairman Upton and subcommittee 
members, thank you for your time, and please regard the 
American Psychological Association as a resource to the 
committee as you consider this and other issues.
    [The prepared statement of Jeff J. McIntyre follows:]

   Prepared Statement of Jeff J. McIntyre on Behalf of The American 
                       Psychological Association

    Good morning, Mr. Chairman and Members of the House Energy and 
Commerce Subcommittee on Telecommunications and the Internet. I am Jeff 
McIntyre and am honored to be here in Chicago to represent the American 
Psychological Association.
    I have conducted years of work related to children and the media as 
a negotiator for the development of a television ratings system, as an 
advisor to the Federal Communications Commission's V-Chip Task Force, 
as a member of an informal White House Task Force on Navigating the New 
Media, as a member of the steering committee for the Decade of Behavior 
Conference on Digital Childhood, and most importantly, as a 
representative of the research and concerns of the over 150,000 members 
and affiliates of the American Psychological Association. I also have 
an appointment on the Oversight Monitoring Board for the current 
television ratings system.
    At the heart of the issue of children and the media is a matter 
long addressed by psychological research--the effects of repeated 
exposure of children to violence. The media violence issue made its 
official debut on Capitol Hill in 1952 with the first of a series of 
congressional hearings. That particular hearing was held in the House 
of Representatives before the Commerce Committee. The following year, 
in 1953, the first major Senate hearing was held before the Senate 
Subcommittee on Juvenile Delinquency, who convened a panel to inquire 
into the impact of television violence on juvenile delinquency.
    There have been many hearings since the 1950's, but there has been 
only limited change--until recently. Media violence reduction is 
fraught with legal complications. Nevertheless, our knowledge base has 
improved over time, with the publication of significant and landmark 
reviews. Based on these research findings, several concerns emerge when 
violent material is aggressively marketed to children.
    Foremost, the conclusions drawn on the basis of over 30 years of 
research contributed by American Psychological Association member--
including the Surgeon General's report in 1972, the National Institute 
of Mental Health's report in 1982, and the industry funded, three-year 
National Television Violence Study in the 1990's--show that the 
repeated exposure to violence in the mass media places children at risk 
for:

 increases in aggression;
 desensitization to acts of violence;
 and unrealistic increases in fear of becoming a victim of violence, 
        which results in the development of other negative 
        characteristics, such as mistrust of others.
    If this sounds familiar, it is because this is the foundation upon 
which representatives of the public health community--comprised of the 
American Psychological Association, the American Academy of Pediatrics, 
and the American Medical Association issued a joint consensus statement 
in 2000 on what we absolutely know to be true regarding children's 
exposure to violence in the media.
    Certain psychological facts remain are well established in this 
debate. As APA member Dr. Rowell Huesmann stated before the Senate 
Commerce Committee, just as every cigarette you smoke increases the 
chances that someday you will get cancer, every exposure to violence 
increases the chances that, some day, a child will behave more 
violently than they otherwise would.
    Hundreds of studies have confirmed that exposing our children to a 
steady diet of violence in the media makes our children more violence 
prone. The psychological processes here are not mysterious. Children 
learn by observing others. Mass media and the advertising world provide 
a very attractive window for these observations.
    The excellent children's programming (such as Sesame Street) and 
pro-social marketing (such as that around bicycle helmets) that exists 
is to be commended and supported. Psychological research shows that 
what is responsible for the effectiveness of good children's 
programming and pro-social marketing is that children learn from their 
media environment. If kids can learn positive behaviors via this 
medium, they can learn the harmful ones as well.
    The role of ratings systems in this discussion merits attention. 
There continues to be concern over the ambiguity and implementation of 
current ratings systems. It appears that ratings systems are undermined 
by the marketing efforts of the very groups responsible for their 
implementation and effectiveness. That, Chairman Upton and members of 
the Subcommittee, displays a significant lack of accountability and 
should be considered when proposals for industry self-regulation are 
discussed.
    Also undermined here are parents and American families. As the 
industry has shown a lack of accountability in the implementation of 
the existing ratings system, parents have struggled to manage their 
family's media diet against misleading and contradictory information. 
(For instance, marketing an R rated film to children under 17.) While 
the industry has made some information regarding the ratings available, 
more information regarding content needs to be made more accessible, 
more often. As with nutritional information, the content labeling 
should be available on the product and not hidden in distant websites 
or in the occasional pamphlet.
    Generally speaking, most adults see advertising as a relatively 
harmless annoyance. However, advertising directed at children, 
especially at young children, that features violence generates concern. 
The average child is exposed to approximately 20,000 commercials per 
year. This is only for television and does not include print or the 
Internet. Much of this is during weekend morning or weekday afternoon 
programming. Most of the concern stems not from the sheer number of 
commercial appeals but from the inability of some children to 
appreciate and defend against the persuasive intent of marketing, 
especially advertising featuring violent product.
    A recent Federal Trade Commission report on the Marketing of 
Violence to Children heightens these concerns. As a result of the 
``Children's On-Line Privacy Protection Act'' the Federal Trade 
Commission has ruled that parents have a right to protect their 
children's privacy from the unwanted solicitation of their children's 
personal information. We would argue that, based on the years of 
psychological research on violence prevention and clinical practice in 
violence intervention, parents also have the right to protect their 
children from material that puts them at risk of harm. With the 
considerations in place for children's privacy, the precedent for 
concern about children's health and safety is well established.
    Decades of psychological research bear witness to the potential 
harmful effects on our children and our nation if these practices 
continue. Chairman Upton and Subcommittee members, thank you for your 
time. Please regard the American Psychological Association as a 
resource to the committee as you consider this and other issues.

    Mr. Upton. We certainly have in the past. Thank you very 
much.
    Dr. Davis.

                  STATEMENT OF RONALD M. DAVIS

    Mr. Davis. Chairman Upton and members of the subcommittee. 
My name is Ronald Davis, I'm a preventive medicine physician 
practicing in Detroit, and residing in East Lansing, and I'm a 
member of the Board of Trustees of the American Medical 
Association. On behalf of the AMA, I am pleased to be here 
today to discuss the effects of television violence on 
children.
    As one that was born in Chicago, and who attended medical 
school just a few miles from where we are today, at the 
University of Chicago, I'm particularly pleased to be in this 
city and in this wonderful school for this hearing this 
morning. I speak to you not only as a physician, but also as a 
father of three sons. And like most parents in the United 
States, my wife and I have had a hard time patrolling around 
the violent entertainment that comes into our own household.
    As we all know, television has a huge presence in most 
children's lives. Almost every home in America has a 
television, and most homes have more than one. Studies show 
that kids, on average, watch television 3\1/2\ hours a day. One 
in five kids watches more than 35 hours of TV each week. Our 
children today are constantly bombarded with violence in TV 
shows, movies, video computer games and music. Media violence 
has increased and is more and more graphic. The AMA has been 
concerned for years about violence on TV and its impact on the 
physical and mental health of children and teens.
    The AMA first expressed concern about the public health 
impact of violent television in the early 1950's. Since then 
the AMA has adopted strong policy opposing TV violence. Our 
policy also recognizes that TV violence is a risk factor and 
threatens children's health and welfare.
    In July, 2000, as mentioned by Jeff McIntyre, the AMA 
joined with the American Academy of Pediatrics, American 
Psychological Association, and other prominent groups. In 
particular, a joint statement of Entertainment, Violence, and 
Children. A copy of that statement is attached to our written 
testimony. The joint statement recognizes that TV programs can 
be an important educational tool for children. But it points 
out that the lessons learned from violence in TV programs and 
other entertainment media can be very destructive.
    Research for more than one thousand studies indicates that 
watching entertainment violence can increase aggressive values, 
attitudes, and behavior. The effect on children is complex and 
vary. And some kids are affected more than others. But it is 
clear that children who seek a lot of violence are more likely 
to think that violence is acceptable and is the way to settle 
conflicts. And younger children are always the most affected. 
Viewing violence may lead to real life crimes.
    TV violence by itself, as has been mentioned, is not the 
only factor that leads to youth aggression, anti-social 
attitudes and actual violence. There are other causes, such as 
family breakdown, peer pressure and easy access of guns and 
other weapons. But there is no question that TV violence has 
negative effects on children and adds to the level of violence 
in our society. Violence is a public health threat, and we need 
to confront all of its causes.
    What is the physician's role in all of this? First, 
physicians should educate themselves about the harmful effects 
of TV violence on children. Second, as educators, physicians 
should talk to their patients, the children themselves, if old 
enough, or their parents about television. They need to ask how 
much TV is watched and the type of programs. As physicians we 
need to counsel our patients that watching violent TV shows can 
be bad for the children. The parents need to monitor and 
control their children's exposure to violence through TV and 
other entertainment media.
    Physicians should consider the role of media when treating 
patients. For example, with children who are hyperactive or 
aggressive, or who complain of nightmares or other sleep 
problems, physicians should ask about their TV viewing habits. 
Limiting rotation to the types of programs the patient watches 
may be part of a recommended treatment plan Finally, as 
advocates, physicians should be involved in community and 
school activities, if possible, just like we're doing here 
today. They can speak to parents or school groups, or directly 
to children about the impact of TV violence. They should also 
speak out for more responsible TV programs.
    Chairman Upton, all of us have important roles to play in 
curving the harmful exposure of our children to accepted 
violence on TV and in other entertainment media. The AMA and 
our physicians look forward to working with you and the 
subcommittee and others to implement strategies to make that 
happen.
    [The prepared statement of Ronald M. Davis follows:]

    Prepared Statement of Ronald M. Davis, Member, American Medical 
                     Association Board of Trustees

    Good morning Chairman Upton, and Subcommittee members. My name is 
Ronald M. Davis, MD, and I am a member of the Board of Trustees of the 
American Medical Association (AMA). I am a preventive medicine 
physician and serve as Director of the Center for Health Promotion and 
Disease Prevention at the Henry Ford Health System in Detroit, 
Michigan. I am pleased to be able to testify today on behalf of the 
AMA. The AMA commends the Subcommittee for holding today's hearing on 
television violence and its effects on children.
    Television and other forms of visual media play an enormous role in 
everyday life, particularly in the lives of children and adolescents. 
While television serves in the education and socialization of children, 
there are also a number of health problems associated with the 
excessive watching of television--independent of content--such as the 
rising rates of childhood obesity. In addition, an extensive body of 
research documents a strong correlation between children's exposure to 
media violence and a number of behavioral and psychological problems, 
primarily increased aggressive behavior. The evidence further shows 
that these problems are caused by the exposure itself.
    Physicians, particularly those who treat children, are only too 
aware of the pervasive effects of television, movies, music videos, and 
computer and video games on modern life and the concern felt by many 
over the violent content of these media. There is an established body 
of evidence documenting the troubling behavioral effects of repeated 
exposure to media violence. For the past several decades, the physician 
and medical student members of the AMA have been increasingly concerned 
that exposure to violence in media is a significant risk to the 
physical and mental health of children and adolescents. America's young 
people are being exposed to ever-increasing levels of media violence, 
and such violence has become increasingly graphic.
    Today 99% of homes in America have a television. American children, 
ages 2-17, watch television on average almost 25 hours per week or 3\1/
2\ hours a day, with almost one in five watching more than 35 hours of 
TV each week. Twenty percent of 2 to 7-year-olds, 46% of 8 to 10-year-
olds, and 56% of 13 to 17-year-olds have TVs in their bedrooms, a 
practice which the AMA urges parents to avoid. Studies have shown that 
28% of children's television shows contain four or more acts of 
violence, and that before he or she reaches the age of 18, the average 
child will witness more than 200,000 acts of violence on television, 
including 16,000 murders. One survey revealed that of the shows that 
contained violence, three quarters of them demonstrated acts of 
violence that went unpunished.
    Violence in all forms has become a major medical and public health 
epidemic in this country. The AMA strongly abhors, and has actively 
condemned and worked to reduce, violence in our society, including 
violence portrayed in entertainment media. The AMA has long been 
concerned about the prevalent depiction of violent behavior on 
television and in movies, especially in terms of its ``role-modeling'' 
capacity to potentially promote ``real-world'' violence. We have 
actively investigated and analyzed the negative effects that the 
portrayal of such violence has on children, and for almost 30 years, 
have issued strong policy statements against such depictions of 
violence.
    Concerns about the public health impact of violent television 
emerged relatively soon after its development as an entertainment 
media. In 1952, the AMA first expressed its concerns over the potential 
impact of violent television programming on children in an editorial in 
the Journal of the American Medical Association. At its 1976 annual 
meeting, the AMA adopted a policy supporting research on the impact of 
media violence. A resolution was also adopted at the same meeting that 
declared the AMA's ``recognition of the fact that TV violence is a risk 
factor threatening the health and welfare of young Americans, indeed 
our future society.'' In 1982, the AMA reaffirmed ``its vigorous 
opposition to television violence and its support for efforts designed 
to increase the awareness of physicians and patients that television 
violence is a risk factor threatening the health of young people.'' 
This policy remains in force, and has been expanded to include violence 
in entertainment media other than television, such as movies, videos, 
computer games, music and print outlets.
    Since the AMA first raised the issue in 1952, a compelling body of 
scientific research has confirmed that our original concerns were well-
founded. Over 1000 studies, including reports from the Office of the 
Surgeon General, the National Institute of Mental Health, and the 
National Academy of Sciences, as well as research conducted by leading 
figures in medical and public health organizations, point 
overwhelmingly to a causal relationship between media violence and 
aggressive behavior in some children. The research overwhelmingly 
concludes that viewing ``entertainment'' violence can lead to increases 
in aggressive attitudes, values and behavior, particularly in children. 
Moreover, exposure to violent programming is associated with lower 
levels of pro-social behavior.
    The effect of ``entertainment'' violence on children is complex and 
variable, and some children will be affected more than others. But 
while duration, intensity and extent of the impact may vary, there are 
several measurable negative effects of children's exposure to such 
violence:

 Children who see a lot of violence are more likely to view violence 
        as an effective way of settling conflicts and assume that acts 
        of violence are acceptable behavior.
 Viewing violence can lead to emotional desensitization towards 
        violence in real life. It can decrease the likelihood that one 
        will take action on behalf of a victim when violence occurs.
 ``Entertainment'' violence feeds a perception that the world is a 
        violent and mean place. Viewing violence increases fear of 
        becoming a victim of violence, with a resultant increase in 
        self-protective behaviors and a mistrust of others.
 Viewing violence may lead to real life violence. Children exposed to 
        violent programming at a young age have a higher tendency for 
        violent and aggressive behavior later in life than children who 
        are not so exposed. Longitudinal studies tracking viewing 
        habits and behavior patterns of a single individual found that 
        8-year old boys, who viewed the most violent programs growing 
        up, were the most likely to engage in aggressive and delinquent 
        behavior by age 18 and serious criminal behavior by age 30.
    In July 2000, at a Congressional Public Health Summit, the AMA 
joined the American Academy of Pediatrics, the American Academy of 
Child and Adolescent Psychiatry, the American Academy of Family 
Physicians, the American Psychiatric Association and the American 
Psychological Association in issuing a ``Joint Statement on the Impact 
of Entertainment Violence on Children.'' The Joint Statement 
acknowledges that television, movies, music and interactive games are 
powerful learning tools and that these media can, and often are, used 
to instruct, encourage and even inspire. The Joint Statement, however, 
also points out that when these entertainment media showcase violence, 
particularly in a context which glamorizes or trivializes it, the 
lessons learned can be destructive. A copy of this joint statement is 
attached to our testimony.
    Entertainment violence is certainly not the sole, or even 
necessarily the most significant, factor contributing to youth 
aggression, anti-social attitudes and violence. Family breakdown, peer 
influences, the availability of weapons, and numerous other factors may 
all contribute to these problems. However, there is no question that 
entertainment violence does have pathological effects on children, and 
the AMA believes that because violence is a public health threat, 
careful consideration must be given to the content of entertainment 
media. As part of its strategy to reduce violence, the AMA has 
supported past efforts by network broadcasters in adopting advance 
parental advisories prior to airing programs that are unfit for 
children, strong and effective television and movie ratings systems, 
``V'' Chips that can screen out violent programming, and most recently, 
DVD-filtering devices.
    We are not advocating restrictions on creative activity. In a free 
society, there must be a balance between individual rights of 
expression and societal responsibility. We do believe, however, that 
the entertainment industry must assume its share of responsibility for 
contributing to the epidemic of violence in our society, and should 
exercise greater responsibility in its programming content.
    Physicians have important roles to play in reducing children's 
involvement with violent media by serving as educators, advisors and 
advocates. All physicians need to recognize that violence in America is 
a major public health crisis, and that media violence contributes to 
this crisis. Physicians need to educate themselves about the harmful 
effects on children of viewing or listening to violence in 
entertainment media, and discuss these effects with parents and 
children old enough to understand such information. Patients can then 
make more informed choices about the amount and type of television they 
watch. Patients will better understand the need for parental 
involvement in decisions about movie, music, video, computer and video 
game content and the impact of various forms of media on eating habits, 
physical activity, and family life in general. Physicians should serve 
as role models by using television sets in office and clinic waiting 
rooms for educational purposes only and having media literacy materials 
available.
    As clinicians, physicians have the opportunity to consider the role 
of media as part of a broader biopsychosocial evaluation when 
evaluating specific presenting problems. For example, in children being 
evaluated for aggressive, oppositional or hyperactive behaviors or for 
nightmares or other sleep complaints, inquiring about the child's 
violent media-related activities may identify a contributing factor 
that could be modified as part of a treatment plan.
    As advocates, many physicians are involved in community activities 
that seek to reduce the public's over-utilization of media and/or the 
amount of violent and other problematic content in media materials. 
This may include such things as speaking about this topic at medical 
meetings, to parent or school groups, or directly to children; joining 
local ``media watch,'' ``media literacy,'' or other groups; or 
participating in national organizations, such as the AMA, that promote 
these goals.
    The AMA will continue to speak out about violence in the media, 
especially its role in contributing to the overall level of violence in 
our society. We will continue to urge the media industry to reduce the 
amount of violence in television programming, movies, music, video 
games and the Internet; depict successful nonviolent solutions for 
anger and conflict; and depict accurately the pain, remorse, and other 
consequences of violence and violent behavior on individuals, families 
and society.
    We appreciate the opportunity to share our views on a matter of 
such importance to the health of Americans.
                                 ______
                                 
[Below is a document signed in July by the American Academy of 
Pediatrics (AAP) and five other prominent medical groups about the 
connection between media and violent or aggressive behavior in some 
children. Please also access the AAP Media Matters page.]

  Joint Statement on the Impact of Entertainment Violence on Children 
                   Congressional Public Health Summit
                             July 26, 2000

    We, the undersigned, represent the public health community. As with 
any community. there exists a diversity of viewpoints--but with many 
matters, there is also consensus. Although a wide variety of viewpoints 
on the import and impact of entertainment violence on children may 
exist outside the public health community, within it, there is a strong 
consensus on many of the effects on children's health, well-being and 
development.
    Television, movies, music, and interactive games are powerful 
learning tools, and highly influential media. The average American 
child spends as much as 28 hours a week watching television, and 
typically at least an hour a day playing video games or surfing the 
Internet. Several more hours each week are spent watching movies and 
videos, and listening to music. These media can, and often are, used to 
instruct, encourage, and even inspire. But when these entertainment 
media showcase violence--and particularly in a context which glamorizes 
or trivializes it--the lessons learned can be destructive.
    There are some in the entertainment industry who maintain that 1) 
violent programming is harmless because no studies exist that prove a 
connection between violent entertainment and aggressive behavior in 
children, and 2) young people know that television, movies, and video 
games are simply fantasy. Unfortunately, they are wrong on both counts.
    At this time, well over 1000 studies--including reports from the 
Surgeon General's office, the National Institute of Mental Health, and 
numerous studies conducted by leading figures within our medical and 
public health organizations--our own members--point overwhelmingly to a 
causal connection between media violence and aggressive behavior in 
some children. The conclusion of the public health community, based on 
over 30 years of research, is that viewing entertainment violence can 
lead to increases in aggressive attitudes, values and behavior, 
particularly in children.
    Its effects are measurable and long-lasting. Moreover, prolonged 
viewing of media violence can lead to emotional desensitization toward 
violence in real life.
    The effect of entertainment violence on children is complex and 
variable. Some children will be affected more than others. But while 
duration, intensity, and extent of the impact may vary, there are 
several measurable negative effects of children's exposure to violent 
entertainment. These effects take several forms.

 Children who see a lot of violence are more likely to view violence 
        as an effective way of settling conflicts. Children exposed to 
        violence are more likely to assume that acts of violence are 
        acceptable behavior.
 Viewing violence can lead to emotional desensitization towards 
        violence in real life. It can decrease the likelihood that one 
        will take action on behalf of a victim when violence occurs.
 Entertainment violence feeds a perception that the world is a violent 
        and mean place. Viewing violence increases fear of becoming a 
        victim of violence, with a resultant increase in self-
        protective behaviors and a mistrust of others.
 Viewing violence may lead to real life violence. Children exposed to 
        violent programming at a young age have a higher tendency for 
        violent and aggressive behavior later in life than children who 
        are not so exposed.
    Although less research has been done on the impact of violent 
interactive entertainment (video games and other interactive media) on 
young people, preliminary studies indicate that the negative impact may 
be significantly more severe than that wrought by television, movies, 
or music. More study is needed in this area, and we urge that resources 
and attention be directed to this field.
    We in no way mean to imply that entertainment violence is the sole, 
or even necessarily the most important factor contributing to youth 
aggression, anti-social attitudes, and violence. Family breakdown, peer 
influences, the availability of weapons, and numerous other factors may 
all contribute to these problems. Nor are we advocating restrictions on 
creative activity. The purpose of this document is descriptive, not 
prescriptive: we seek to lay out a clear picture of the pathological 
effects of entertainment violence. But we do hope that by articulating 
and releasing the consensus of the public health community, we may 
encourage greater public and parental awareness of the harms of violent 
entertainment, and encourage a more honest dialogue about what can be 
done to enhance the health and well-being of America's children.
     Donald E. Cook, MD, President, American Academy of Pediatrics;
    Clarice Kestenbaum, MD, President, American Academy of Child & 
     Adolescent Psychiatry; L. Michael Honaker, PhD., Deputy Chief 
Executive Officer, American Psychological Association; E. Ratcliffe 
      Anderson, Jr. MD, Executive Vice President, American Medical 
       Association; American Academy of Family Physicians; and the 
                                   American Psychiatric Association

    Mr. Upton. Professor Kunkel.

                    STATEMENT OF DALE KUNKEL

    Mr. Kunkel. Thank you very much for the opportunity to 
testify today. I've studied children and media issues for over 
20 years, and am one of the senior researchers who led the 
National Television Violence Study in the 1990's, a project 
widely recognized as one of the largest scientific studies of 
media violence. In my remarks here today, I will briefly report 
the key findings in that project, as well as summarize the 
state of knowledge in the scientific community about the 
effects of media violence.
    I was impressed with all the opening statements from 
members this morning, and particularly yours, Mr. Chairman. You 
echoed one of the lines that I often present, and that is to 
list the major organizations of public health agencies that are 
already drawn a conclusion that you're hearing from the panel 
here today. The Surgeon General, The National Academy of 
Science and so on. We might add to that list that the 
broadcasting industry, the BMAE, the National Cable Television 
Association, your friend, Jack Lempke, who heads the MPAA, all 
of these individuals and organizations have also acknowledged 
that media violence contributes to real world violence and 
aggression.
    And I encourage the committee to hold them accountable for 
those statements and for behavior that is consistent with that 
knowledge. Because we heard so much about some of the 
summaries, I'm going to skip some of my remarks and only 
include in the record the documents that research reviews, and 
turn directly to a research that I've been involved with the 
National Television Violence session. Much of that work 
emphasized the importance in examining differences in the ways 
in which violence is presented on television and the 
implications that those differences hold from the effects that 
result from viewing violent material.
    Simply put, not all violence is the same in determining the 
potential for harmful effects on child viewers. The nature of 
the context that surrounds the violence matters, and that is 
important. For example, consider a violent act that has the 
following feature. It is committed by a repugnant character who 
no one would wish to imitate. It clearly depicts part of the 
sufferings by victims, and it results in strong negative 
consequences for the perpetrator of the violence. That kind of 
portrayal would actually minimize the risk of the most harmful 
effects for viewers, because it does not glamorize nor sanitize 
the depiction of violence.
    In contrast, consider a very different type of violent 
portrayal. One that is committed by an attractive or popular 
character, who is a potential role model for children, that 
depicts unrealistically mild harm to the victim who is 
attacked. And that conveys power and status for the perpetrator 
or attracts the approval of others in the program. This type of 
portrayal, by glamorizing and sanitizing the depiction of 
violent behavior, has a much stronger risk of leading to 
harmful outcomes in the viewer.
    Research conducted by myself and colleagues at four 
universities as part of the National Television Violence Study 
documents a very unfortunate trend in the context surrounding 
most violent depictions on the television. Our final report, 
which was based on the analysis of roughly 10,000 programs 
across three television seasons, concluded that the manner in 
which violence is presented on television follows the latter 
example that I just traced. That is to say, that the most 
pattern associated with violent portrayal on TV involved 
contextual features such as: Not showing a realistic degree of 
harm for the victim; not showing the pain and suffering that's 
realistically associated with violent attacks; and not showing 
the serious long-term negative consequences of violence.
    These patterns were present in the large majority of 
violent portrayals across all channels and at all times of the 
day. In contrast, programs that included a strong anti-violence 
theme accounted for less than 4 percent of all shows containing 
violent content.
    Now, these data are troubling, but they're not new. They 
serve to underscore that the way in which most violence is 
depicted on television does, indeed, pose a serious risk of 
harm for children. Whether or not violence on television might 
be reduced in quantity, it could certainly be presented in more 
responsible action, thereby diminishing the risk of harm to 
child viewers. This is one potential avenue for addressing 
concerns in this area that, in my view, has not been actively 
explored.
    In sum, the research evidence clearly establishes that the 
level of violence for TV is a substantial cause for concern. 
Content analysis demonstrates the violence of a potential 
aspect of TV programming that enjoys remarkable consistency and 
stability over time. And effect research, including 
correlational, experimental, and longitudinal design, all 
converge to document the risk of harmful psychological effects 
on child viewers is very potent.
    Collectively, these findings from the scientific community 
make clear that television violence is a troubling problem. I 
applaud this subcommittee for considering the topic and 
exploring potential policy options that may reduce or otherwise 
ameliorate the harmful effects of children's exposure to 
television violence.
    [The prepared statement of Dale Kunkel follows:]

    Prepared Statement of Dale Kunkel, Department of Communication, 
                         University of Arizona

    Thank you for the opportunity to testify today before the 
Subcommittee.
    I have studied children and media issues for over 20 years, and am 
one of several researchers who led the National Television Violence 
Study (NTVS) in the 1990s, a project widely recognized as the largest 
scientific study of media violence. In my remarks here today, I will 
briefly report some key findings from the NTVS project, as well as 
summarize the state of knowledge in the scientific community about the 
effects of media violence on children.
Media Violence: The Importance of Context
    Concern on the part of the public and Congress about the harmful 
influence of media violence on children dates back to the 1950s and 
1960s. The legitimacy of that concern is corroborated by extensive 
scientific research that has accumulated since that time. Indeed, in 
reviewing the totality of empirical evidence regarding the impact of 
media violence, the conclusion that exposure to violent portrayals 
poses a risk of harmful effects on children has been reached by the 
U.S. Surgeon General, the National Institutes of Mental Health, the 
National Academy of Sciences, the American Medical Association, the 
American Psychological Association, the American Academy of Pediatrics, 
and a host of other scientific and public health agencies and 
organizations.
    In sum, it is well established by a compelling body of scientific 
evidence that television violence poses a risk of harmful effects for 
child-viewers. These effects include: (1) children's learning of 
aggressive attitudes and behaviors; (2) desensitization, or an 
increased callousness towards victims of violence; and (3) increased or 
exaggerated fear of being victimized by violence. While exposure to 
media violence is not necessarily the most potent factor contributing 
to real world violence and aggression in the United States today, it is 
certainly the most pervasive. Millions of children spend an average of 
20 or more hours per week watching television, and this cumulative 
exposure to violent images can shape young minds in unhealthy ways.
    Much of my research has emphasized the importance of examining 
differences in the ways in which violence is presented on television, 
and the implications such differences hold for the effects that result 
from viewing violent material. Simply put, not all violence is the same 
in terms of its risk of harmful effects on child-viewers. The nature 
and context of the portrayal matters. For example, consider a violent 
act that has the following features:

--it is committed by a repugnant character who no one would wish to 
        emulate;
--it clearly depicts the harms suffered by victims;
--and it results in strong negative consequences for the perpetrator.
This type of portrayal would actually minimize the risk of most harmful 
effects for viewers, because it does not glamorize or sanitize its 
depiction of violence. In contrast, consider a different type of 
violent portrayal;

--one that is committed by an attractive or popular character who is a 
        potential role model for children;
--that depicts unrealistically mild harm to the victim who is attacked,
--and that conveys power and status for the perpetrator or attracts the 
        approval of others in the program.
This type of portrayal, by glamorizing and sanitizing the depiction of 
violent behavior, has a much stronger risk of leading to harmful 
outcomes in the viewer.
    Research conducted by myself and colleagues at four universities as 
part of the National Television Violence Study documents an unfortunate 
trend in the context surrounding most violent depictions on TV. Our 
final report, which was based on the analysis of approximately 10,000 
programs across three television seasons, concluded that the manner in 
which most violence is presented on television actually enhances rather 
than diminishes its risk of harmful effects on child-viewers. That is, 
the most common pattern associated with violent portrayals on TV 
involved contextual features such as:

--not showing a realistic degree of harm for victims;
--not showing the pain and suffering realistically associated with 
        violence attacks;
--and not showing the serious long-term negative consequences of 
        violence.
These patterns were present in the large majority of violent portrayals 
across all channels, and at all times of day. In contrast, programs 
that included a strong anti-violence theme accounted for less than 4% 
of all shows containing violent content.
Implications of the Findings
    These data are troubling, though they are not new. They serve to 
underscore that the way in which most violence is depicted on 
television poses a serious risk of harm for children. It does not have 
to be that way. Independent of whether or not violence on television 
might be reduced in quantity, it could certainly be presented in more 
responsible fashion, thereby diminishing its risk to child viewers. 
This is one potential avenue for addressing the concern about media 
violence that, in my view, has not yet been adequately explored.
    In sum, the research evidence in this area establishes clearly that 
the level of violence on television poses substantial cause for 
concern. Content analysis studies demonstrate that violence is a 
central aspect of television programming that enjoys remarkable 
consistency and stability over time. And effects research, including 
correlational, experimental, and longitudinal designs, converge to 
document the risk of harmful psychological effects on child-viewers. 
Collectively, these findings from the scientific community make clear 
that television violence is a troubling problem for our society. I 
applaud this Subcommittee for considering the topic, and exploring 
potential policy options that may reduce or otherwise ameliorate the 
harmful effects of children's exposure to television violence.

    Mr. Upton. Thank you.
    Professor Blackman.

                STATEMENT OF RODNEY JAY BLACKMAN

    Mr. Blackman. I would like to express my pleasure for being 
here. And I teach constitutional law and First Amendment 
issues, and I taught these subjects for many years. The 
question of violence can be examined in the context of various 
forms of anti-social communication and how the court deals with 
it. The explicit sexual graphic, sexual material in its 
(inaudible) and expressions of violence. At one time, the court 
allowed plaintiffs to recover for what was called a group libel 
expression of hatred directed at a particular group.
    In more recent years the Supreme Court has refused to 
allow--or seemed to refuse to allow recovery for new libel or 
hate scenes directed at a group. The lesson constitutes rare 
and specific individuals, or I want to say it constitutes the 
defamatory material directed at specific individuals. With 
respect, it is sexually explicit material. The court has 
limited sex issue, sexually explicit material to that which is 
regarded as it seems that which is happening appeals to the 
parameter of this and lacks artistic--literary, artistic, 
scientific valu taken as a whole. Pornography that is out of 
scene is allowed in the media.
    The question of what would be the key question toward 
violence has not been resolved. But it looks as though the 
Supreme Court would be very remarkable to allow me for 
contacting--researching the prohibition expression to violence 
with one exception with the broadcast media where the broadcast 
suggest a monopoly sense of the broadcast band return it 
connects with the broadcaster that the broadcast majority rules 
the pieces and the statements.
    George Carl gave a talk in which he use several of the 
verdicts that are not ordinarily used in the broadcast media. 
And the Supreme Court held a sanction of the broadcaster, the 
broadcaster center on two o'clock in the afternoon. Violence 
that promotes anti-social act, killing or suicide in 
adolescences, has not been found to justify a tort of action 
against the broadcaster. Because the causal relationship 
between the broadcast of the anti-social message and the act is 
not sufficiently close. A group of women have attempted to 
get--sustain an ordinance that prohibited violence against 
women. And the courts have held that unless the material comes 
within the definition of obscenity, fewer (inaudible) has 
offensive likely to look at the political--I'm sorry--literally 
artistic liberal sector governing, taken as a whole, it could 
not be prohibited.
    So, the road of those who would engage in content-base 
restrictions on violence is for others to seek one. That does 
not mean, however, that all reforms and activity on the part of 
those who wish to restrict violence in school.
    John Stewart, a proponent of listing fair government action 
involving self-regarding harmful acts is not only the kind of 
thing that he believes, namely, a worthy opponent to the 
harmful violence. And I believe that the depiction of violence 
can be harmful. The idea of promoting V-Chips that are 
requiring salespeople to inform customers of how to use a V-
Chip. That, too, will be possible. Go into Hollywood and see 
the producer and directors produce violence that will 
technically lead to the kids, that, too, would be harmful. So, 
would not all of us would run (inaudible) analysis. Thank you.
    [The prepared statement of Rodney Jay Blackman follows:]

Prepared Statement of Rodney Jay Blackman, Professor, DePaul College of 
                                  Law

    I would like to express my opposition to any broad based 
governmental restriction of media and internet violence. I would like 
to do so for several reasons.
    First, I will admit that depictions of violence on TV, the movies 
or on the internet, available to children, particularly repeated 
depictions, increases the likelihood of children engaging in acts of 
violence. But I am still opposed to any broad based censorship of the 
media and the internet to protect children.
    One reason is that it gives the impression of government acting as 
Big Brother. It was Joseph Stalin who claimed to be the engineer of 
human souls. To a minor degree and in a seemingly benign way, broad 
based censorship of media and internet violence available to children 
lends itself to this approach. The assumption underlying this approach 
is that the government should mold what images children receive in 
order to create a more socially adjusted child. While having social 
well adjusted children is a laudable goal, any broad based censorship 
in one area has the potential for encouraging other restrictions (the 
slippery slope argument). Are depictions of violence that children can 
see any more justified than depictions of sex or hatred? Once 
government starts down this road in one area, any logical limit to 
governmental regulation in other areas is weakened. The sum of such 
regulations, though not each individual one taken separately, could 
move our citizenry, and not just the young, toward a substantially 
restricted ability to see images and express thoughts.
    A second reason is that, over the long run, it may restrict our 
liberty without being effective. The underlying assumption is that it 
is only external stimulus that causes people, children and adults, to 
act in an anti-social way. If we could only eliminate the external 
stimulus, we would solve the problem of anti-social behavior. But this 
view seems simple minded. Ted Bundy said that his violent acts against 
women were triggered by looking at violent pornography. This cannot be 
the whole story. The vast majority of men could look at depictions of 
violent acts against women and would likely become disgusted or bored 
and stop looking. While the external stimulus might be the immediate 
cause in specific instances, something in the human brain of some 
people is also going on. Could anyone seriously argue, for example, 
that the neo-Nazi, Matthew Hale, developed his views because of some 
Nazi film that he saw? Under the view that I am espousing some people 
(mostly boys and men) have either been poorly raised by their parents 
or parent substitutes or else have some genetic flaw that makes them 
particularly violent. If this is so, then censoring the images that 
children (or adults) receive in the media or internet would have little 
or no long term effect on such people.
    A third reason is that any broad based restriction is likely to be 
ineffective because it restricts what children and adults can see more 
completely than the public would tolerate. If children cannot see 
violent cartoons on TV, then they might gravitate to violent cartoon 
comics. If children and adults, cannot see or read violent material 
more generally, they will gravitate even more to violence in sports--
boxing, wrestling, football, hockey even baseball and basketball. In 
order to protect children fully, the government would have to regulate 
what appears on news broadcasts. No images of people shooting people in 
Iraq would be allowed. Then too, the Bible and Koran contain depictions 
of violence. Should these be barred as well?
    A fourth reason is that efforts to protect children through broad 
based restrictions of violence on TV or the internet are likely to run 
afoul of the Supreme Court's understanding of the First Amendment. 
While the Court has allowed government to restrict depictions of 
obscene material (pornography that appeals to the prurient interest, is 
patently offensive and lacks serious literary, artistic, political or 
scientific value) and sexual depictions of children (whether obscene or 
not), it has so far not allowed for media restrictions of violence. The 
one case I am aware of in this area was a city's effort to prohibit 
degrading or violent depictions of women. Since the ordinance was not 
limited to the narrow obscenity exception to First Amendment protected 
speech, the federal courts struck it down. The Court has also struck 
down statutes that restrict what adults can see even though they have 
been enacted ostensibly to protect children. As the Court puts it, 
adults cannot be limited to what is fit for children. Thus, if the net 
result of a broad based restriction so as to limit what adults can see 
on TV or in the movies, I believe it would run afoul of similar Court 
pronouncements. As to the Internet, the Court has not yet determined 
whether it would accept a restriction on what children can access based 
on community standards when the result would enable the most 
restrictive community to determine what children could access in the 
most permissive communities.
    What I would call a narrowly based statute, one that, for example, 
requires that salesmen selling TVs explain to buyers how to use the V-
Chip (assuming the TV has one), a labeling statute as to what is unfit 
for children, or a statute that prohibits depictions of violence in 
cartoon shows in the morning hours, probably would be upheld by the 
Court and would not unduly restrict our First Amendment liberties.

    Mr. Upton. Well, thank you very much.
    What we're going to do at this point, I think that each of 
us here on the panel, members of the panel, usually ask a 
question, and then we go to the question the students have 
submitted. I'm going to play Devil's advocate here for a 
moment. I'm a dad, I've got two kids. I've got a high school 
junior and I've got a seventh grader. And as parents, my wife 
and I are always very concerned about what they do, what shows 
they watch, computer, and all of that, and we're nice people, 
we're very good parents. And I know that parental influences is 
a major, major element.
    And I concur with the studies that have been done. My wife 
and I are so concerned about the access that our kids have in 
making sure that they are properly handling what they're 
seeing. In fact, today's USA Today newspaper, I don't know if 
any of you saw it, and I would say off the top, I'm 51 years 
old, it's still hard for me to say that, and I have watched TV 
shows, from my viewing as a teen, it's a great escalation in 
terms of violence and for our kids. And all those specific 
scenes, we're exposed to the specifics and have a lot more 
violence than their parent's kids see on TV at all the 
different hours, et cetera.
    Things are much more violent today than they were, 20, 30 
years ago. But yet, the USA Today, today's story, list the 
crime rates in the paper. It said that the crime rates have a 
steady low last year. And looks at crime statistics go back 
into the early 1990's. A comparable number in 1993, the violent 
crime rate was 50 per a thousand people. In 2003, there was, it 
says here, that ``amounts have grown from a violent crime rate 
of an assault, intentional assault, armed robbery'', it stood 
at 22.6 victims for every thousand, age 12 and up to about 
double. It was double in 1993 than it is today.
    So, we see a real climb in crime rates. Yet, at the same 
time, we see, at least in my view, the amount of increase in 
the kind of violence. If they are exposed to it, and all people 
are exposed. I just--and all people are exposed, I just welcome 
the democratic to be here, and to advise: Why do you get that, 
those numbers are the way that they are? Dr. Slutkin.
    Mr. Slutkin. The overall crime rate is unlikely to limit 
the amount on television as it is. Because as it's been pointed 
out, there is other influences, too. I would like----
    Mr. Upton. Grand Auto Theft wasn't a game that is on the 
videos.
    Mr. Slutkin. I would like to point out, though that these 
rates, that albeit somewhere between a fourth and a half down 
from what they were at their highest peak, are still 25 times 
higher than they are in other countries. And it's a situation 
that is substantially different than that in other developed 
countries. So, we have a completely out of control situation 
that is not only out of control, you know, it is like having 
the police not doing anything, and then suddenly they're doing 
some pieces of their job. But the community aspect of this, the 
parental aspect of this, the advertising and promotion of the 
violence, all that stuff is still in there. So, I think that 
some interventions have been put into place. But there is no 
complacency of where the rates are now.
    Mr. Upton. It does make a point, by the way, that there are 
more people in jail than ever before.
    Mr. Slutkin. And as you've pointed out, so, what have we 
got there? We have a society in which we're promoting violence, 
regularizing violence, and catching those who do it, and 
putting them in jail. So, it's obviously not a correct 
situation.
    Mr. Upton. Anybody else have a comment?
    Mr. Kunkel. Yes, please. Mr. Chairman, when you talk about 
crime rates and so forth, it's important to underscore that no 
one is suggesting that media violence is the sole or even the 
primary contributor to real world violence and aggression. We 
are asserting it is a significant contributor. Let's draw a 
little comparison here. If you wanted to reduce heart attacks 
in this country, how would you do that? Well, you would look at 
what are the risk factors that contribute to heart attacks. And 
those that include cigarette smoking is one risk factor. If 
you're over a certain weight, then you're obese, and that's a 
risk factor. If you have high stress in your job, that's a risk 
factor. There can be a history of heart disease in your family, 
that's a risk factor.
    Now, from the medical perspective, the way you're going to 
reduce heart attacks is to diminish those risk factors. If you 
took away one risk factor in the United States, there was 
never--no smoking was allowed in this country, we're going to 
increase it and say if no one smoked, then would you still have 
heart attacks? Absolutely, you still would.
    Now, let's look at the situation with the crime rate and so 
forth. Your suggestion is that there is more violence, or there 
is certainly more graphic violence in the media today. But the 
data that we have from content studies, if you look over the 
last 4 years, actually show that the violence in the media and 
in the television is very consistent and stable. In fact, 
that's one of the most interesting points, remarkably stable. 
And if you look at the big picture, yes, I think crime rate and 
violence in the real word is down, but I believe that that is 
because the progress in the country is engaged in a large 
number of initiatives and efforts to reduce violence. But I 
don't think that you can use that as an argument to say that 
real world violence isn't affected by the violence that we see. 
Research is far too compelling in the other direction.
    Mr. Blackman. I would like to get out of the area and talk 
more generally. There are a number of reasons why there are 
more crimes in the United States than there are in other 
countries. One is the fact that we have a society that people 
are different. And when you're--everybody that has crime rates 
have the same background, you might think that they are related 
to you. Go back a few hundred years and you might be less prone 
to engage in violence if you're around it. It's a very 
disciplinary action. We don't have that in this country. We 
also have a very mobile society where people with relatively 
polished backgrounds can move up. We, in our society where 
there are jobs available, we have a society where, at least to 
some extent, there are drugs available, there is alcohol 
available. And we have a society with a high rate of breakdown 
in family life. And all of those factors contribute to the 
amount of violence.
    How much is the--the thought of the violence in the main 
aspect of the human mind to create the young adolescent, and--
and teenage, and young adults they (inaudible). I remember 
reading an article that I had, pages of the New York Times, by 
a novelist, Michael Shovone, some months ago, when he said that 
children have violent thoughts. They will be independent of the 
amount of media about violence, true the media market increases 
the likelihood of violence. But it's a multi-dimensional 
problem I suspect in focusing only on this one aspect which has 
a potential for limiting what adults can watch. It may not be 
the appropriate approach.
    Mr. Upton. Thank you. And a quick comment, and then Mr. 
Rush has some questions.
    Mr. Davis. Chairman Upton, I just wanted to make a point 
that violence in the media may have other effects besides those 
criminal activities. I think we heard about research linking 
violence in the media and aggressive behavior or abusive 
behavior. We've seen statistics showing an increase only in 
activity, for example, through the years, and this is something 
that the AMA has been speaking out on in recent years. The 
published studies in the Journal of the American Medical 
Association on voting, and pointing out how for too long we've 
taken that problem for granted. And we need to take it 
seriously and have a zero tolerance approach to bully activity 
in the schools, and in other places where youth congregate, 
because of its serious aspects on our children.
    Mr. Upton. Mr. Rush.
    Mr. Rush. Thank you, Mr. Chairman. Mr. Chairman, first of 
all, I'd like to take a moment to thank all of you panelists 
for coming from across the Nation here for this hearing. And I 
also want to thank my colleague, Mr. Shimkus, for his presence 
here also.
    I want to concur with some of you. That's a compliment. Mr. 
Chairman, 4 years ago I lost my son from a violent act. And the 
thing that really I focus on determines the type of violences 
that are occurring almost on a daily basis. In some of our 
homes, in our streets, is that we are desensitized to something 
that we see, and the television portrayals of violence. We 
don't see the effects of after that. One of the things that 
really It just hit me so hard, that that kind of pain and 
tragedy, the kind of gut-wrenching reaction to violence for my 
family, not only for those convicted, but also for the 
perpetrators of violence, and the kind of trauma, the ongoing 
trauma that occurs, that never gets portrayed; the mothers in 
pain. The pride of the mothers get portrayed. So, the kind of 
textual aspects of a violent act, and the result of the violent 
act, never gets away. But I believe that you pick your own in 
terms of the contextual responsibility that we have here.
    I want to just tell the students here some of the questions 
that you had per your remarks. And I'm going to start with just 
trying to answer some questions. But I would like to ask the 
panelist, Mr. McIntyre, if you will comment on the parent's 
responsibilities. Where does the parental responsibilities come 
in as we discuss TV viewership which portrays violence? What is 
my responsibility as a parent?
    Mr. McIntyre. I would say that they start day one, and 
perhaps even a little before day one, to start thinking about 
how to prepare healthy viewing habits for your kids. The thing 
that can be tricky for parents in this is two points. One is 
that, you know, everybody is different, all individuals are 
different. And so all kids are different, too. And so the 
parent really needs to be in touch with where their own child 
or children are so that they can kind of monitor and help with 
the healthy media habits around the kids. What strengths, their 
weaknesses or virtues that they want their child to develop. If 
the child is showing some instances of pleading, or increased 
fear, of being a victim, then they're going to want to be aware 
of the violence that they're looking at over in the media. Part 
of the good thing about the ratings that we have now, is that 
parents can tweak their preferences based on whatever decisions 
they make about their kid, if they are concerned about 
violence, if they're concerned about sexual behavior, then it's 
up to the parents to honor those paths. But the parents do need 
to have reliable information to be able to do that. We do think 
that the television industry can do a little in providing more 
accurate and more reliable information. But ultimately, it's 
the parents that we're trying to empower this.
    Mr. Kunkel. Would you indulge in another response, Mr. 
Chairman?
    Mr. Rush. Sure.
    Mr. Kunkel. I think that everyone concurs that parents have 
a significant role, primary role to play in protecting their 
children from TV violence. You have got to look at the data, 
however, to appreciate that many parents are not sensitized to 
this topic. Indeed, there is a substantial proportion of homes 
in America that there is always constantly a television on in 
homes. And what that we need to keep in mind is that a 
household where the television set is basically left on all day 
whether anyone is watching it or not. Television is on during 
meals and so forth. And whatever programming is coming along 
the channel that it's on, is allowed to play regardless of its 
activity in the content. Those are numbers that represents 
millions of homes in this country. So, if you believe all the 
data that you've heard today, if you believe that media 
violence has contributed to real world violence and aggression, 
then while it's important to look for parents to play a role 
here, parents can't be the only solution.
    If there are representatives from the television industry 
here today, they would advocate that it's the parent's 
responsibility, not their responsibility. And that the parents 
have to do their job, and we have a big problem here. And I 
don't think that realistically because we are up against a 
multi-billion dollar industry that now permeates our culture 
such that to engage in your immediate consumption. You cannot 
like media violence. And I think one of the real shames is, 
that just as you point out that we are desensitized, we don't 
respond to see violence in the media on television.
    In fact, when you read stories of a murder or a crime, 
unless we know the victim, we don't respond with the pain and 
grief and anguish that we should, because we read those stories 
too often. The only time we respond with great sensitivity is 
when the numbers of people killed are so high that they grab 
our attention because they have what, a new record. And it's a 
shame that things have come to that point. We need to be more 
sensitive to media violence, and this dramatic part that we 
need to give parents the tools and the training to help them do 
their job to sensitize their children.
    Mr. Rush. Mr. Chairman, I just want to see something just 
for a moment. I really want to ask the audience, just by the 
raising of hands, how many students here in this auditorium in 
the last year know someone, either a relative, or a friend, or 
a friend of a friend, knows someone who has been killed by 
violence in the last year? Would you raise your hands?
    [Students raise hands.]
    Mr. Rush. Okay. Thank you. How many students here in the 
last year know someone or is either a friend, or knows someone 
who knows someone, or a family member who has had a violent 
act, who has been injured by a violent act in the last year?
    [Students raise hands.]
    Mr. Rush. Thank you very much. I ask that because this is, 
indeed, a problem that we are constantly experiencing. I know 
in my experiences that between the hours of 12 and 2 o'clock--
well, let's say 10 and 2 p.m., every Saturday, most young--a 
lot of young--significantly young to what I prefer, of someone 
who has been killed, are attending funerals. It's probably one 
of the major gathering places for someone who has been killed. 
On Saturday it's a place for young people to gather between 10 
a.m. and 2 p.m. Thank you.
    Mr. Upton. Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. And I want to thank 
my colleague, Bobby Rush here, for doing that. I was going to 
ask the question, too. But I think his question really 
highlights the challenges that we have in the national level on 
different areas. If you ask that in my high school in my 
district, I don't think you would get a hand. You wouldn't get 
a hand raised. Now, we would have kids who are drinking and 
driving, who have other activities of violent crimes. So, I 
thank you for asking that. Let me follow along with the 
panelists, like you did last, and I'll look around, of the 
students here, poke your friends next to you because I want to 
get hands up on this. How many of you all have a TV in your 
household, one TV?
    [Students raise hands.]
    Mr. Shimkus. How many, one or more, one or more?
    [Students raise hands.]
    Mr. Shimkus. Okay. How many have three TVs in your home?
    [Students raise hands.]
    Mr. Shimkus. How many of you have--this is a question the 
chairman let me ask before. How many have a TV in your bedroom?
    [Students raise hands.]
    Mr. Shimkus. How many of you watch more than 3 hours of TV 
a day?
    [Students raise hands.]
    Mr. Shimkus. More than 2 hours a day?
    [Students raise hands.]
    Mr. Shimkus. Okay. I'm not done. How many know or 
understand that there is a TV rating system out there?
    [Students raise hands.]
    Mr. Shimkus. Can anyone explain it to me?
    Mr. Rush. Just one person.
    Mr. Shimkus. Can anyone explain the rating system to me, 
anyone out there? Yes, right there in the white. Stand up, I 
can't hear you. Speak from the upper diaphragm.
    Unidentified Speaker. Well, on TV it will tell you what 
it's rated, like, PG, or PG-13, or rated R.
    Mr. Rush. What does it mean?
    Unidentified Speaker. Uh?
    Mr. Rush. What does it mean?
    Unidentified Speaker. PG-13 is for little kids, rated R is 
for big kids.
    Mr. Shimkus. All right. How many of you know anything about 
what they call a V-Chip? Has any of you ever had problems 
watching something you wanted to watch because your parents 
turned it on, or used it? How many never heard of V-Chip, raise 
your hands.
    [Students raise hands.]
    Mr. Shimkus. This is good for us. I mean, we read, we do 
surveys, we can hear testimony. But really, we have audiences 
that are here from Washington, DC. We don't usually ask these 
questions. But the difference is, they are tailored to students 
and are being paid to sit in and listen to what you all have 
just listened to. Or there are visitors, and they can leave at 
any time they want, and they just listen for a few minutes, and 
they get bored, and they usually walk out.
    Although, there are some public interests that are 
concerned about what we're going to do. So, this is really--you 
are experiencing what happens in Washington on a hearing. And I 
appreciate your asking questions. The last thing I would say is 
for the folks who need AMA, and anyone else concerned, there is 
legislation this year ongoing, which is another major problem 
in our schools, probably we're not successful into moving in 
this year, but we call ``teeing it up'' for the realization of 
next year, and if you're interested in involving with that as 
it pertains to this issue, we would really encourage your 
participation. And, Mr. Chairman, thank you.
    Mr. Upton. Thank you. Well, Congressman Rush has with him a 
list of questions that the students have prepared. And it is at 
this point we'll take the next 15 or 20 minutes, if there is 
that many questions. And, Bobby, we will let you read the 
questions and get a response, and at which point, then we'll 
conclude.
    Mr. Rush. Thank you, Mr. Chairman. Just to take a note that 
these questions, and there are some outstanding questions, I 
want to congratulate the students here at Simeon High School 
for very insightful questions. Question No. 1, and any of the 
panelists, if you will, if you can respond to this: ``Do you 
feel the government has a right to regulate what is shown on 
television?''
    Mr. Upton. Just do a yes or no answer.
    Mr. Slutkin. Yes, I think they have some responsibility.
    Mr. McIntyre. Yes, they have some responsibility.
    Mr. Davis. I would say, yes, in terms of rating systems and 
possibly controlling the content of child programs.
    Mr. Kunkel. Are there limits to what the government can do? 
Yes. But can the government convene and rate some regulations 
in this area? Yes.
    Mr. Blackman. I would agree that the time regulation might 
be feasible. And I would be opposed to comment other than that. 
But a rating system might also be too small.
    Mr. Rush. The next question is: ``What are your ideas of 
what parents should do to limit their children from watching 
violence on television?'' How can parents limit their children 
from watching violence on television? And I guess maybe we can 
talk a little more about the V-Chip and what the V-Chip does.
    Mr. Shimkus. Take them out of the bedrooms.
    Mr. Upton. Let's start over here.
    Mr. Rush. This time let's start over here. Professor 
Blackman, what ideas do you have for what parents should do to 
limit their children from watching violence on television?
    Mr. Blackman. My understanding is that there is a 
significant set of parents that don't know how to use the V-
Chip. They have brought TV fairly recently into the V-Chip and 
this is going to be there. So, perhaps through the schools 
educating parents who have televisions on how to use the V-Chip 
would be a helpful concern. And also requiring that televisions 
sold with the V-Chip, that the salesperson is trained to 
explain how to use them.
    Mr. Kunkel. I'll be brief. But I'd like to make two points. 
And the first is that most television viewing is not planned. 
That is to say, the most common way to view television is to go 
to the set when you have available time, turn it on, and on the 
channels that they show us. The odds are better than 50/50, 
you're going to encounter a violent program. So, what a parent 
can best do is to plan their children's viewing with the child. 
That is to say, you open up the TV Guide every week; you find 
the programs that are going to be valuable; you either adjust 
your schedule and watch it that time, and take advantage of new 
technology, like the digital video records, so you can capture 
that program, and watch it at your convenience. If you were 
going to take a trip to the library, you wouldn't walk into the 
library aimlessly, go up a particular aisle and pull a book off 
at random. It's not how we read. Why is that the way we watch 
television? So, that would be one point.
    My second point here is, that in the context of a 
discussion about the V-Chip, the V-Chip is an important tool 
for parents. But it may not be the tool for the age range that 
we're meeting with here today. Young people at this age are 
going to be, I think, negotiating with their parents what's 
appropriate to view, and being in agreements with the context 
with the parents, assuming the parents is proactive in keeping 
that responsibility.
    The V-Chip is really designed more for the younger child 
audience, when the parent can't always be at the TV set, but is 
nearby in the home. And so, it's an aid, I think, primarily to 
younger children rather than the older group.
    Mr. Rush. Dr. Davis.
    Mr. Davis. I would say that the parents, first of all, need 
to know what their kids are watching. And I won't be popular 
with the kids in the audience here in saying this, but having 
televisions in the bedrooms, as a parent of three sons, I don't 
think is a great idea, because you don't know what they're 
watching. I think total time in front of the television, or 
playing video games, or playing computer games, needs to be 
controlled by their parents. Having a television on during 
meals is something we always avoid in our own household. 
Because that's the time where parents and their children 
connect and find out about their day, talk about issues that 
might be prominent.
    And I think parents need to set limits on the kind of shows 
that kids are allowed to watch. As has been mentioned, it's 
hard to find any program that doesn't have some violence in it. 
But some programs have expensive and gratuitous violence that 
runs throughout the program, and those are the kinds of 
programs that parents need to have their children avoid 
watching.
    Mr. McIntyre. I'm going to step in and say, you know, I 
think the biggest thing the parents can do is to know their 
kids. That so many times parents get distracted by jobs and 
bills and whatnot. And they're not familiar with what's going 
on in their kids' lives. And if they get their kids look the 
way I see, the parents think that there is something to talk 
about in the kitchen or in the refrigerator. You know, you got 
to know what your kids are about. You don't know your kids. You 
think that, you know, for one child, you know, the parents may 
approve of them watching Jackie Chan or Jet Li, or those sort 
of movies. But for another kid, I think that represents 
significant risks, and the parents are too distracted by the 
things going on in their world, and don't have tons of patience 
with their kids in the media, and that's what we address.
    Mr. Slutkin. Yeah, I think the planning and the limiting of 
time and knowing are such a--I just would like to add one 
particular thing. And not every parent will be there or agree, 
but I think it might be useful that you have a conversation 
about what television is. And for those of us who watch a 
little bit of television, to ask ourselves, are we just 
squawking down and being lazy and letting ourselves be in the 
situation we're in. The television is stronger than you are. In 
other words, the television is larger than your mind. Whether 
than you being larger than it, and being able to control it, so 
you can be able to turn it off, which you become a little 
stronger.
    Mr. Upton. I have a quick question for the audience again. 
And that is: Well, there are three ways you can get TV, one is 
satellite, one is cable, the other one is over the air. So, I'd 
like to know where they are. How many people have watched their 
TV through cable? Raise your hands.
    [Students raise hands.]
    Mr. Upton. Okay. And how many people watch through 
satellite?
    [Students raise hands.]
    Mr. Upton. All right. And is there anyone here that has 
just over-the-air, just an antenna?
    [Students raise hands.]
    Mr. Upton. All right. Thank you. Next question.
    Mr. Rush. Mr. Chairman, I think most of the questions are, 
again, are the same type. Well, let me ask this, and this is a 
good one here. It says, ``Violence is part of everyday life, 
not just on television.'' If violence is taken off the TV 
because of children, what will the government, or what should 
the government do to retain--not retain--to reduce violence in 
our community on a daily basis with for our children?
    Mr. McIntyre. There is a large array of programs that we 
can discuss, and discuss the merits and values of--that can 
address the problems as much as individuals vary, communities 
vary, and those that seek violence and individual communities 
have to be approached as well. Everything from educational 
programs to prenatal health, to the presence of guns.
    One of the concerns that we have at the APA is a 
qualitative increase in violence. Not necessarily that the 
numbers are going up, but we're saying that violence isn't 
about getting out back in the schoolyard, punching each other, 
giving each other a black eye. But it's about, you know, 
whipping out a nine millimeter and settling it that way. That, 
there is a wide variety of.
    Mr. Davis. As a physician, I'd like to mention a couple 
examples of what we in the medical profession can do. One is 
for physicians to look for signs of violence when their 
patients come in with problems. For example, physicians need to 
be attuned to domestic violence when a woman comes in with 
trauma. And then we put out guidelines for what other 
physicians need to be doing to look for that kind of thing.
    What they also mention is a program we had in LaPorte 
Hospital in Detroit, we've seen some horrible statistics on 
kids coming into the emergency room with trauma. Initially, 
they might be a victim of an assault, and then a year later 
they might be back with a stab wound, and then a year after 
that with a gunshot wound. And our statistics show that a few 
percentage that we were discovering were dead in 5 years. So, 
we said to ourselves, why not intervene with these kids the 
first time we can, or they go down that inevitable cascade of 
worse and worse trauma and violence.
    And so, we had a program in LaPorte Hospital where we 
connect kids after they presented a trauma, we call it, The 
Teen of Enrichment Program. And we bring it in once a week, we 
bring in speakers. Experts on gang violence. We connect them in 
the community, based on organizations, so that they can mentor, 
talk to these kids, find out what their home environment is, 
and then that's the kind of thing that we can do.
    Mr. Blackman. One of the lessons I believe we might learn 
from the war is that showing not just the bombs falling, but 
the victims of the shooting that hasn't been seen today. I will 
need to emphasize as to the increase, the interest is, insofar 
as we can encourage it. An awareness of what the victims suffer 
rather than on the bombing and the shootings. All that 
encourages in the media and in the schools to try to get people 
to (inaudible) in after the tour. To the extent we can do that, 
I think people will be less problematic to engage in private 
gangs. Thank you.
    Mr. Rush. Thank you, Mr. Chairman. I think it's my round of 
questioning, and I just have one comment. First of all, I want 
to thank all the witnesses, and I want to thank all the 
students for their involvement. I think you should give 
yourselves a round of applause.
    There is one area, of course, I wanted to get into, and 
that is what I'm really concerned about, and I want us to think 
about it as we proceed with additional Chairman hearings in the 
field, and that is: The increasing incidences of violence 
committed--violence committed by one young female as opposed to 
males. And maybe we can get into that real soon at some 
additional point in time.
    But again, these questions, we asked you, of course, for 
your participation, and your presence, Mr. Chairman, is really, 
really well noted, and it's very, very important to us as a 
community, and also as a citizen of this Nation, and I want to 
thank you for bringing this subcommittee to Simeon High School 
and for taking the time out. You didn't have to do this, but 
you did anyhow, and we certainly appreciate you for your 
commitment and for your leadership on this issue that faces our 
Nation. Again, thank you so much.
    Mr. Upton. Thank you. Let me say in conclusion, and in 
addition to chairing this subcommittee, I serve on the 
Educational Committee. And I've been to a school every week, 
whether it would be an elementary school, like I did at St. 
Mary's last Friday, or a high school class, or a college 
university. And often, I can tell as I walked in the door, the 
quality instruction, the students are receiving good teachers. 
And I got to say, looking through these questions that were 
presented today, I know this is a great school. And I'm really 
proud of each of you in the issues that you have to be a 
wonderful American. And that's the appreciation that Bobby Rush 
is the leader for. He doesn't shine just today, he shines every 
day.
    He is an active participant in every issue that we have had 
over the years, and he has had over the years in our 
subcommittee, and it was a great joy that we can pick a date 
out. He actually picked the day and the site. And for me to 
come, and Mr. Shimkus's participation, as well. This is an 
issue of concern, finally a Member of Congress puts in an 
appearance. And as you look to the future, I can assure you 
that we're getting paid to work shoulder to shoulder on the 
issues that confront our Nation every which way.
    Thank you all, and thank you panelists for being here and 
sharing your testimony and taking the opportunity to be a part 
of this record. We look forward to interacting with you. And 
with that, the hearing is adjourned.
    [Whereupon, the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

        Prepared Statement of the American Academy of Pediatrics

    The American Academy of Pediatrics, representing 60,000 
pediatricians, regrets that an AAP member could not testify in person, 
but we would like to submit this statement for the record. We 
appreciate your leadership and interest in how the media, particularly 
television, impacts the health and behavior of children and 
adolescents.
    Our three main points are:

 Although there are potential benefits from viewing some television 
        shows, many negative health effects in children can also 
        result. These include aggressive behavior, desensitization to 
        violence, nightmares and fear of being harmed. By knowing how 
        television affects children, we can make TV viewing for 
        children less harmful and still enjoyable.
 It is not violence itself but the context in which it is portrayed 
        that can make the difference between learning about violence 
        and learning to be violent. Studies show that the more 
        realistically violence is portrayed, the greater the likelihood 
        that it will be tolerated and learned.
 Parents, health professionals, the entertainment industry and 
        policymakers all have critical roles in discussing and 
        addressing television violence.
    The Academy recognizes exposure to violence in media, including 
television, movies, music, and video games, as a significant risk to 
the health of children and adolescents. The young people of this 
country drink in media all day, every day. What would we do if we 
discovered that the water our children drink was full of factors toxic 
to their physical and mental health? The question for consumers and 
producers of media is simple: in what kind of environment do we want 
our children to grow up?
    Over the last 20 years, the AAP has expressed its concerns about 
the amount of time children and adolescents spend viewing television 
and the content of what they view. Although there are potential 
benefits from viewing some television shows, such as the promotion of 
positive aspects of social behavior (e.g., sharing, manners, 
cooperation), many negative health effects also can result. Extensive 
research evidence indicates that media violence can contribute to 
aggressive behavior, desensitization to violence, nightmares and fear 
of being harmed. Children and adolescents are particularly vulnerable 
to the messages conveyed through television, which influence their 
perceptions and behaviors. Television can inform, entertain and teach 
us. However, some of what television teaches may not be what parents 
want their children to learn. TV programs and commercials often show 
violence, alcohol or drug use, and sexual content that are not suitable 
for children or teenagers. By knowing how television affects children, 
we can make TV viewing for children less harmful and still enjoyable.

           IMPACT OF MEDIA ON HEALTH AND BEHAVIOR OF CHILDREN

    Starting from when we are very young, we get the majority of our 
information from media. While media offers us, including children, many 
opportunities to learn and to be entertained, how people interpret 
media images and media messages also can be a contributing factor to a 
variety of public health concerns. Among children and adolescents, 
research shows that key areas of concern are:

 Aggressive behavior and violence; desensitization to violence, both 
        public and personal
 Substance abuse and use
 Nutrition, obesity and dieting
 Sexuality, body image and self-concept
 Advertising, marketing and consumerism
    This morning we are focusing specifically on television violence. 
Research in a variety of circumstances and settings has shown that the 
strongest single correlate with violent behavior in young people is 
previous exposure to violence. Before age 8, children cannot 
discriminate between real life and fantasy. On-screen violence is as 
real to them as violence that they witness at home or in their 
community. From childhood's magical thinking and impulsive behavior, 
adolescents must develop abstract thought and social controls to 
prepare them to deal with adult realities. If this development process 
occurs in a violent environment, it can become distorted. Media, with 
which children spend more time than with parents or teachers, have 
great potential for shaping the hearts, minds, and behaviors of 
America's young people, and we need to take this potential very 
seriously.
    Entertainment violence is not the sole factor contributing to youth 
aggression, anti-social attitudes and violence. Family breakdown, peer 
influences, the availability of weapons, and numerous other factors may 
all play a part. But entertainment violence, including television, does 
contribute. The media are an area of clear risk that we, as a 
compassionate society, can address.

                          VIOLENCE IN CONTEXT

    It is not violence itself but the context in which it is portrayed 
that can make the difference between learning about violence and 
learning to be violent. Serious explorations of violence in plays like 
Macbeth and films like Saving Private Ryan treat violence as what it 
is--a human behavior that causes suffering, loss and sadness to victims 
and perpetrators. In this context, viewers learn the danger and harm of 
violence by vicariously experiencing its outcomes. Unfortunately, most 
entertainment violence is used for immediate visceral thrills without 
portraying any human cost. Sophisticated special effects, with 
increasingly graphic depictions of mayhem, make virtual violence more 
believable and appealing. Studies show that the more realistically 
violence is portrayed, the greater the likelihood that it will be 
tolerated and learned.
    Children learn the ways of the world by observing and imitating--
they cannot help but be influenced by media. Exposure to media violence 
results in an increased acceptance of violence as an appropriate means 
of conflict resolution. Media exaggerate the prevalence of violence in 
the world and offer strong motivation to protect oneself by carrying a 
weapon and being more aggressive. Perhaps the most insidious and potent 
effect of media violence is that it desensitizes viewers to ``real 
life'' violence and to the harm caused its victims. The more realistic, 
comic, or enjoyable the media violence, the greater the 
desensitization. Given what we know through research, why is violence 
marketed to children? To quote Dr. David Walsh, author of Selling out 
America's Children, ``Violent entertainment is aimed at children 
because it is profitable. Questions of right or wrong, beneficial or 
harmful are not considered. The only question is `Will it sell?' ''
    As medical professionals, pediatricians want parents and the 
television industry to understand that TV programs can have powerful 
positive and negative effects on child health. They can be used to 
teach wonderful, enlightening and entertaining lessons to children but 
also can show graphically violent, cruel, and terrifying images that 
can lead to aggressive behavior in some children and nightmares, 
fearfulness or other emotional disturbances in others.

                            RECOMMENDATIONS

    Free speech and open discussion of society's concerns protect our 
liberty. We do not want censorship, which is both unconstitutional and 
ultimately unsuccessful in a free society. However, we need to help 
children make the best media choices, just as we try to do with the 
food they eat. Parents, health professionals, policymakers and the 
entertainment industry each bear some responsibility. For example, 
parents should set content and time limits on media use, monitor and 
discuss the media their children consume, and take televisions out of 
the children's bedrooms. Pediatricians should alert and educate parents 
when positive media opportunities arise, either educational or 
informational. Policymakers need to enforce and in some cases, 
strengthen laws and regulations that protect children as media 
consumers. They should also increase the funding available for media 
research. The AAP endorses legislation in the Senate, ``Children and 
Media Research Advancement Act,'' to fund and generate more research on 
how media impacts children. We should also support media education 
programs in American schools that have been demonstrated to be 
effective.

                      ROLE OF TELEVISION INDUSTRY

    Lastly, the entertainment industry needs to acknowledge that it is 
an important and powerful force in American society, one that affects 
all of us in many ways. Too often scientific research on the effects of 
media on children and adolescents is ignored or denied by some in the 
entertainment industry. Yet the leading medical groups in this country, 
including the American Academy of Pediatrics, American Medical 
Association, American Psychological Association and the American 
Academy of Child and Adolescent Health, all echo the same conclusion. 
Based on decades of research, viewing entertainment violence can lead 
to aggressive attitudes, values and behavior, particularly in children. 
It is time for everyone in the entertainment industry to join us in 
protecting and promoting the health of our children.
    Many in the industry are parents, grandparents, aunts or uncles 
themselves. As individuals they care deeply about children and youth. 
We are simply asking them to take their personal values into the 
workplace as they pursue their business. Though many producers and 
consumers of entertainment media express helplessness to change the 
flood of violence, this problem will only be solved through the efforts 
of media producers and media consumers who decide to reject violent 
media. As the entertainment audience we must focus on what we want our 
young people to learn and how we want them to behave. To do so, we must 
support positive entertainment products and reject negative and 
dangerous media products, including violent TV programming.
    If the television industry accepts our invitation, we can start 
talking about reasonable and practical solutions. The AAP and its 
members have been working on many fronts to help parents and children 
glean the best from unending media exposure. The AAP launched its Media 
Matters campaign (www.aap.org/advocacy/mediamatters.htm) seven years 
ago to help pediatricians, other health professionals, parents and 
children become more knowledgeable about the impact that media messages 
can have on children's health behaviors. Public education brochures on 
the media have been developed and distributed, including one that 
explains how the various ratings systems work. In addition, the Academy 
established a Media Resource Team (www.aap.org/mrt) in 1994 to work 
with the entertainment industry in providing the latest and most 
accurate information relating to the health and well being of infants, 
children, adolescents and young adults.
    Until more research is done about the effects of TV on very young 
children, the American Academy of Pediatrics does not recommend 
television for children younger than 2 years of age. During this time, 
children need good, positive interaction with other children and adults 
to develop good language and social skills. Learning to talk and play 
with others is far more important than watching television. For older 
children, the AAP recommends no more than 1 to 2 hours per day of 
quality screen time.
    The AAP has supported federal legislation and regulation when 
necessary over the years to help address TV violence. We supported the 
v-chip to help parents control which programs their children see and 
negotiated with the industry to revise their TV ratings system. 
However, we still have a lot to work on. Parents don't know much about 
the v-chip and how to use it, nor can they easily decipher the TV 
ratings system. Many parents find the ratings unreliably low, with an 
objective parental evaluation finding as much as 50% of television 
shows rated TV-14 to be inappropriate for their teenagers. The ``TV Y7 
FV'' rating is often thought to mean ``family viewing'' instead of 
``fantasy violence'' for children age 7 and older. The ratings are 
determined by industry-sponsored ratings boards or the artists and 
producers themselves. They are age based, which assumes that all 
parents agree with the raters about what is appropriate content for 
their children of specific ages. Furthermore, different ratings systems 
for each medium (television, movies, music and video games) make the 
ratings confusing. We have called for simplified, content-based media 
ratings to help parents guide their children to make healthy media 
choices. Until we achieve that, the v-chip and current ratings system 
should be extensively publicized by the industry.
    In our ``Media Violence'' policy statement, we have also urged the 
industry to:

 Avoid the glamorization of weapon carrying and the normalization of 
        violence as an acceptable means of resolving conflict.
 Eliminate the use of violence in a comic or sexual context or in any 
        other situation in which the violence is amusing, titillating 
        or trivialized.
 Eliminate gratuitous portrayals of interpersonal violence and 
        hateful, racist, misogynistic, or homophobic language or 
        situations unless explicitly portraying how destructive such 
        words and actions can be.
    If violence is used, it should be used thoughtfully as serious 
drama, always showing the hurt and loss suffered by victims and 
perpetrators.

                           DIGITAL TELEVISION

    The AAP, as part of the Children's Media Policy Coalition, has been 
urging the Federal Communications Commission (FCC) to adopt new public 
interest obligations for children's television programming for the 
transition to digital television. This transition offers the best 
opportunity to shape how this new technology can serve children. Some 
of what we have called for includes more educational and informational 
(E/I) programming for children, consistent icons denoting E/I programs, 
on-demand ratings to be called up at any time during the program (with 
a brief explanation as to why for example, a show has a ``V for 
violent'' rating), and an open v-chip to accommodate any new ratings 
systems in addition to the industry's rating system.

                               CONCLUSION

    Ultimately, we are all in this together and we should seek a 
collective solution. Parents, health professionals, the entertainment 
industry and policymakers have critical roles in discussing and 
addressing television violence, particularly when it comes to the 
health of children and adolescents.
    Given the overwhelming body of research indicating the danger posed 
by media violence to the normal, healthy development of our human 
resources, we need to focus on nurturing and preserving those 
resources, our children and our nation's future.
    Should you need any additional information, please do not hesitate 
to contact us at 202-347-8600. Thank you.

                                 <all>

</pre></body></html>
